<html>
<title> - OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE BUREAU'S POLICY TO COUNT PRISONERS, MILITARY PERSONNEL, AND AMERICANS RESIDING OVERSEAS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
 OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE BUREAU'S POLICY TO COUNT 
     PRISONERS, MILITARY PERSONNEL, AND AMERICANS RESIDING OVERSEAS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON THE CENSUS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 9, 1999

                               __________

                           Serial No. 106-39

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______


                    U.S. GOVERNMENT PRINTING OFFICE
60-341 CC                   WASHINGTON : 2000





                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

                       Subcommittee on the Census

                     DAN MILLER, Florida, Chairman
JOHN T. DOOLITTLE, California        CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            DANNY K. DAVIS, Illinois
PAUL RYAN, Wisconsin                 HAROLD E. FORD, Jr., Tennessee
MARK E. SOUDER, Indiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Thomas B. Hofeller, Staff Director
                Kelly Duquin, Professional Staff Member
                Timothy Maney, Professional Staff Member
           David McMillen, Minority Professional Staff Member
          Mark Stephenson, Minority Professional Staff Member



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 9, 1999.....................................     1
Statement of:
    Gilman, Hon. Benjamin, a Representative in Congress from the 
      State of Wisconsin.........................................    28
    Green, Hon. Mark, a Representative in Congress from the State 
      of Wisconsin...............................................    20
    Hamod, David, executive director, Census 2000 Coalition; Don 
      Johnson, vice president, Association of Americans Resident 
      Overseas; L. Leigh Gribble, secretary, American Business 
      Council of Gulf Countries, and executive committee member, 
      Republicans Abroad; Dorothy van Schooneveld, executive 
      director, American Citizens Abroad; and Joseph Smallhoover, 
      chair, Democrats Abroad....................................    59
    Prewitt, Kenneth, Director, Bureau of the Census.............    34
Letters, statements, etc., submitted for the record by:
    Green, Hon. Mark, a Representative in Congress from the State 
      of Wisconsin, prepared statement of........................    24
    Gribble, L. Leigh, secretary, American Business Council of 
      Gulf Countries, and executive committee member, Republicans 
      Abroad, prepared statement of..............................    82
    Hamod, David, executive director, Census 2000 Coalition, 
      prepared statement of......................................    64
    Johnson, Don, vice president, Association of Americans 
      Resident Overseas, prepared statement of...................    73
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York:
        Apportionment tables.....................................     8
        Prepared statement of....................................    16
    Miller, Hon. Dan, a Representative in Congress from the State 
      of Florida, prepared statement of..........................     3
    Prewitt, Kenneth, Director, Bureau of the Census, prepared 
      statement of...............................................    43
    Smallhoover, Joseph, chair, Democrats Abroad, prepared 
      statement of...............................................   104
    van Schooneveld, Dorothy, executive director, American 
      Citizens Abroad:
        Collection of statements on census 2000..................    87
        Prepared statement of....................................    96


 OVERSIGHT OF THE 2000 CENSUS: EXAMINING THE BUREAU'S POLICY TO COUNT 
     PRISONERS, MILITARY PERSONNEL, AND AMERICANS RESIDING OVERSEAS

                              ----------                              


                        WEDNESDAY, JUNE 9, 1999

                  House of Representatives,
                        Subcommittee on the Census,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m., in 
room 2247, Rayburn House Office Building, Hon. Dan Miller 
(chairman of the subcommittee) presiding.
    Present: Representatives Miller, Gilman, Ryan, Maloney, and 
Davis of Illinois.
    Staff present: Tom Hofeller, staff director; Erin Yeatman, 
press secretary; Jo Powers, assistant press secretary; Kelly 
Duquin and Timothy Maney, professional staff members; Michelle 
Ash, minority counsel; David McMillen and Mark Stephenson, 
minority professional staff members; and Ellen Rayner, minority 
chief clerk.
    Mr. Miller. Good morning. With a quorum present, we will 
begin the hearing of the subcommittee. I will have a brief 
opening statement, and I believe Congresswoman Maloney will 
have one, and then we will proceed.
    As we begin this hearing today, let me be clear that 
everyone gathered here shares the same goal. We all want the 
most accurate census in 2000. As part of our effort toward 
achieving an accurate count, we are here this morning to 
discuss three pieces of recently introduced census legislation 
that focus on the enumeration of overseas Americans, prisoners, 
and military personnel.
    We are honored to have Chairman Ben Gilman, as well as 
Congressman Mark Green and fellow subcommittee member, Paul 
Ryan, here to discuss their proposed legislation. I am also 
pleased to welcome back Census Director Prewitt as a witness to 
discuss Census Bureau policy in enumerating these groups and 
any concerns that he may have with these proposals. I also look 
forward to hearing from some very informed witnesses regarding 
these proposals. I understand that some of these witnesses have 
traveled great distances to be here today, and we do appreciate 
their efforts that they have made to be here.
    Chairman Ben Gilman has just introduced today a resolution 
that will affect the 3 million Americans who live and work 
abroad. At present, the Census Bureau does not plan to 
enumerate these citizens. This resolution raises concerns that, 
while the U.S. Government officials living abroad were counted 
in 1990 and will be counted in 2000, private citizens who play 
a key role in advancing our national interests around the world 
are not included in the census count.
    Through the Census 2000 Coalition, Americans living abroad 
have taken the initiative to have themselves included in the 
census count. Many of these Americans maintain ties to the 
United States by voting and paying taxes and feel they should 
be included in the census count. I look forward to discussing 
current Bureau policy regarding this issue and examining the 
viability of this question.
    Another piece of legislation we will discuss is H.R. 1632, 
which was recently introduced by my colleague from Wisconsin, 
Mark Green. This particular piece of legislation seeks to 
affect how prisoners will be enumerated in the 2000 census. At 
present, many States have export policies with regard to 
prisoners, meaning many prisoners are incarcerated in States 
other than where they were convicted.
    For purposes of the 2000 census, the Census Bureau will 
attribute counts of prisoners to the States in which they are 
incarcerated. H.R. 1632 seeks to attribute the counts of the 
prisoners to their home State or the State in which they were 
convicted, provided that State can claim more than half the 
costs associated with the incarceration of the prisoners.
    I know this is of particular interest to my colleagues, Mr. 
Green and Mr. Ryan, as it is believed that the State of 
Wisconsin could add as many as 10,000 people to their 
apportionment count with this method. I will look forward to 
hearing about this proposal as well as Dr. Prewitt's views on 
this matter.
    [The prepared statement of Hon. Dan Miller follows:]

    [GRAPHIC] [TIFF OMITTED]60341.001
    
    [GRAPHIC] [TIFF OMITTED]60341.002
    
    Mr. Miller. And last but certainly not least, my fellow 
subcommittee member, Paul Ryan, has drafted legislation which 
will require the Census Bureau to attribute the counts of 
individuals who serve in the Armed Forces to their homes of 
record. At present, the Bureau will attribute these individuals 
to the State in which they are stationed on April 1, 2000.
    Again, I believe all of these proposals address legitimate 
concerns and I look forward to an open and informed discussion 
today. We have several informed witnesses with us today, as 
well as Census Bureau Director Prewitt who, I am sure, will be 
able to advise us on the viability of these proposals.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    And thank you for calling this meeting and for all of the 
witnesses, many of whom came from abroad to be here.
    Today, we will consider three related issues, all of which 
deal with how and where to count certain populations during the 
census. As Director Prewitt has pointed out, the census is not 
just about counting people. The census must count all of the 
people and match them to specific addresses as of April 1.
    As the census has evolved over the past two centuries, the 
rules governing where people are counted have evolved to meet 
the changing character of society. It is quite proper for 
Congress, which is constitutionally charged with conducting the 
census, to consider who should be counted in the census and 
where they should be counted. However, if we are going to 
examine residency rules for the census, we would be better 
served if we pursued it in a more systematic fashion and in a 
timeframe that allowed for the proper consideration of these 
ideas.
    We are 298 days from census day. Any change we make today 
increases the risk of a failed or less accurate census.
    Let me say at this point, Mr. Chairman, that I am pleased 
that you called this hearing today. There are a number of 
issues on which this subcommittee should be holding hearings, 
and I hope that you will see to it that they are addressed. 
Results from the dress rehearsal have been in for some time, 
and we have yet to hold a hearing on them. This hearing clearly 
shows the need for a hearing on residency rules and how they 
are applied.
    In addition, Mr. Chairman, I ask that you call a hearing on 
how the census is progressing toward meeting the milestones for 
the 2000 census. I believe we should give the Census Bureau 
Director an opportunity to keep the Congress informed as we 
count down to census day. Perhaps we could ask the Director to 
provide us with an electronic census clock that counts down the 
days to April 1, 2000.
    Turning again to the issues of the day, the first 
resolution, introduced by the distinguished chairman of the 
International Relations Committee, Ben Gilman, from the great 
State of New York I might add, is a sense of the congressional 
resolution which advocates that all Americans living overseas 
be provided with the opportunity to be counted in the 2000 
census. Let me say, on the outset, that I am sympathetic to the 
desires of overseas Americans to be counted. It is a laudable 
patriotic motive which we should do all we can to support and 
accommodate.
    However, the proposal raises a number of complicated 
questions which I hope our witnesses and the Director can 
address today. The counting of overseas Americans can only be 
done on a voluntary basis of self-enumeration, much as the 
mailout, mailback portion of the decennial census is done. What 
cannot be done is any equivalent of the nonresponse followup 
the Census Bureau conducts in this country. As a result, the 
accuracy of the count of Americans overseas is questionable. In 
fact, without a more precise definition of who we are trying to 
count, a census or a complete count of this population is 
impossible.
    A second question is whether overseas Americans should be 
allocated to States for purposes of apportionment and, if so, 
to which State should they be assigned? Last residence? Legal 
residence? Leave it completely voluntary, which means they 
would only go to nontax States like yours. Some have suggested 
using voter registration; however, it is my understanding that 
the majority of Americans overseas do not vote.
    Finally, the voluntary nature of such a count, coupled with 
the vagueness of where these people should be counted, 
establishes a dangerous situation. As we will see in discussing 
the other proposals on the table today, the temptation to try 
to gain a few more people is tremendous. We could be 
unintentionally setting the stage for States to try to 
influence the count of Americans overseas in order to add to 
their numbers.
    It is in order, however, to answer the most important 
question: How many Americans are living overseas? I am drafting 
legislation which would require a special census of the 
overseas population as soon after the census as is practicable. 
That information can be used by the Census Bureau to more 
precisely define this population, and, in turn, will allow 
Congress to consider the inclusion of this population in the 
2010 census. Without in any way criticizing the professionalism 
of the Census Bureau, I believe that such a survey would be 
much better in quality than anything the Bureau could improvise 
now at this late date in an ad hoc manner. I will be providing 
each of the witnesses with a discussion copy of that 
legislation. I would hope that, after careful consideration of 
the draft, you would contact me with your reactions to the 
bill.
    Mr. Chairman, I hope this is one thing we can agree on. And 
I hope it will be a bill that we can work together on to solve 
part of the solution to this problem.
    Today, we will also consider two other bills. H.R. 1632, 
introduced by Representative Green, requires that prisoners 
housed out of State be counted as residents of the State paying 
for their incarceration. A bill proposed by subcommittee 
member, Representative Ryan, requires that active duty military 
personnel and their dependents be counted at their home of 
record. These bills were presumably introduced with the intent 
of boosting the population totals of Wisconsin, which may lose 
a seat after the 2000 reapportionment.
    I certainly understand the motives of these bills. New York 
is slated to lose two seats if the current projections hold 
true. But, these bills also raise troubling questions and would 
overturn precedent about where people are counted that date 
back to the very first census. What is more, these bills 
apparently would not have their desired effect. An analysis of 
the proposal on the military done for me by the Congressional 
Research Service shows that assigning military personnel to 
their ``home of record'' would not shift any seats in the 
House. And even if all of the prisoners housed out of State 
were counted in Wisconsin, I doubt it would be enough to affect 
its apportionment.
    And then, if you start with prisoners, then to use my own 
State, we not only have prisoners out of State, we have 
prisoners moved from one section of the State to another 
section that is densely populated. Then, would you shift the 
count there? Just to use my own State, we also have foster care 
children that we pay for in other States, college students, I 
am sure there are many other government programs. So, it would 
start a whole host of other problems, or rather challenges, to 
get an accurate count.
    Mr. Chairman, I would like to have the apportionment tables 
created by the Congressional Research Service included in the 
record and, also, my draft legislation.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]60341.003
    
    [GRAPHIC] [TIFF OMITTED]60341.004
    
    [GRAPHIC] [TIFF OMITTED]60341.005
    
    [GRAPHIC] [TIFF OMITTED]60341.006
    
    [GRAPHIC] [TIFF OMITTED]60341.007
    
    [GRAPHIC] [TIFF OMITTED]60341.008
    
    [GRAPHIC] [TIFF OMITTED]60341.009
    
    Mrs. Maloney. The Census Bureau uses the concept of ``usual 
residence'' to decide where to count individuals, a principle 
established by the First Census Act in 1790 and upheld by the 
courts as recently as 1992. Usual residence is defined as the 
place where a person lives and sleeps most of the time. 
Mandating exceptions to this rule must be done very carefully, 
if at all, because it raises serious questions.
    As I said before, I would welcome a thorough congressional 
study on the use of usual residence in the census. In fact, I 
believe that such a study would benefit both Congress and the 
Census Bureau. We could begin by examining the exception to 
that rule provided for Members of the House and Senate. 
However, we start down a treacherous path when we encourage 
changes in census procedures without a thorough understanding 
of both the intended and unintended consequences.
    Again, I thank you for calling this hearing.
    Mr. Miller. Thank you.
    Without objection, your requested document for the record 
will be included.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]
[GRAPHIC] [TIFF OMITTED]60341.010

[GRAPHIC] [TIFF OMITTED]60341.011

    Mr. Miller. Mr. Davis, you don't have an opening statement?
    Mr. Davis of Illinois. Well, yes, I do.
    Mr. Miller. Oh, OK. Mr. Davis.
    Mr. Davis of Illinois. Normally I forgo an opening 
statement, but I think that these matters are so important. I 
also think my staff has worked so hard on the issues that I 
just wouldn't let the opportunity go by, Mr. Chairman.
    So, I want to thank you for convening this hearing today to 
examine issues regarding the counting of Americans residing 
overseas, prisoners, and military personnel.
    This hearing raises a number of interesting questions as we 
prepare to conduct the 2000 census. As I have indicated before 
in previous hearings, our main objective must be accuracy and 
the assurance that everyone is counted.
    The issue of a growing number of Americans living abroad 
has become more prevalent as technology improves. It is not 
uncommon to have breakfast in Europe and dinner in America on 
the same day.
    Our technological advances have allowed us to dwarf 
distance and place, time and change. We have made the world a 
community. Therefore, as more Americans begin to live abroad, 
we must find a way to ensure that they count in America.
    I am certain that because this is such an important issue 
and the census has become so politicized that we must proceed 
with thoughtful and careful deliberation on this question.
    The Census Bureau has a plan for counting military 
personnel, Federal employees, and their dependents living 
abroad. However, I am interested in hearing how they plan to 
work with overseas Americans to make sure that they count 
either in this census or certainly, the next one.
    Today we also examine H.R. 1632, a bill that would require 
the Census Bureau to count prisoners in the State that pays 
more than 50 percent of the cost of their incarcerations. It 
has been a long established tradition that prisoners, residents 
of nursing homes, VA hospital patients, and other 
institutionalized populations should be counted as residents of 
the State in which the institution or facility is located.
    The court upheld this principle in 1992. According to CRS, 
as of January 1998, approximately 5,877 prisoners were housed 
out of State, approximately 0.5 percent of all State prisons. 
In fact, in Illinois we currently have approximately 30 out of 
44,000 plus prisoners housed out of State.
    To require that those 30 prisoners be counted in Illinois 
would establish a precedent that could lead to endless 
exceptions to current census resident rules and create an 
administrative nightmare. However, I look forward to my 
colleague, Representative Green, presenting the case as to why 
this legislation should be adopted.
    Finally, we will examine legislation pending by 
Representative Ryan that would require that military personnel 
be counted at the individual's home of record. In the 1990 
census, military personnel overseas were counted for purposes 
of apportionment at their homes of record. They were then 
subtracted out of State population totals for all other 
purposes.
    This legislation would require the Census Bureau to count 
military personnel for apportionment purposes from the State 
they enlisted until they leave the military. Currently, the 
Census Bureau counts U.S. based military personnel as regular 
citizens via standard enumeration. I am concerned because this 
legislation would require the Census Bureau to create a whole 
new design for counting military personnel and could add delay 
to the 2000 census, which may possibly jeopardize accuracy.
    I want to thank the witnesses for coming today to testify. 
I appreciate all of your efforts, Mr. Chairman, to make sure 
that we get through this process and thank you very much for 
the opportunity to present this statement.
    Mr. Miller. Thank you, Mr. Davis.
    I think, Mr. Ryan, your opening statement is really 
relating to your piece of legislation. So, we will call Mr. 
Green and Mr. Gilman, and we will start with you first as a 
statement regarding your specific legislation. So, Mark Green, 
if you want to come up and sit at the table; and then, when Mr. 
Gilman comes in, we will proceed. But, we will proceed with you 
as a first statement concerning your piece of legislation.
    Mr. Ryan. Thank you, Mr. Chairman. I would like to address 
the two opening statements that my colleagues on the minority 
just addressed.
    I introduced, last night, legislation that I feel is 
essential to achieving an accurate count in the census. This is 
not an attempt to get an extra congressional seat in Wisconsin. 
It has nothing to do with that. This is an attempt to get a 
good enumeration count, to get the best census count we can 
achieve.
    The military personnel are a unique group because they 
often pay taxes and vote in a State in which they are 
stationed. Now, it is difficult to clearly define their actual 
residence. I absolutely agree with that. Most would not be 
residing in the place that they should be stationed were it not 
for their military service. Many have families in other States. 
My bill would provide clarity by ensuring that military 
personnel are allocated in their home of record. This will 
ensure that Federal funding and redistricting are based on an 
accurate count of the population.
    Currently, the Census Bureau plans on using home of record 
data for counting military personnel who are stationed 
overseas. I am bringing this, extending it to domestic use. 
This bill requires that the Census Bureau work in partnership 
with the Department of Defense to count military personnel who 
have been stationed in the United States as well.
    This bill is not a radical shift in the policy for census. 
In the census of 1990, as well as the 1970 census, the 
Department of Commerce utilized the home of record data. In 
1992, the Supreme Court stated that the Secretary of the 
Department of Commerce was acting within the law when he used 
the home of record data from personnel files to count military 
personnel in the 1990 census. There is precedent. This is not a 
radical shift in policy. It was buttressed by the Supreme Court 
in 1992.
    I am not seeking to uproot years of tradition here today. I 
am merely fighting to ensure that the census is done in a fair 
and equitable manner. I think Congressman Green's legislation 
does the exact same thing.
    Accounting for all U.S. citizens in their proper homes is 
what we should achieve to do. These men and women have claimed 
a State to be their home. Why shouldn't we honor that claim? 
There are many States that, merely based on location, have been 
chosen to house military personnel. Counting military personnel 
as residents of these States when they are actually voting and 
paying taxes elsewhere simply just doesn't make sense. I urge 
my colleagues to join me in supporting this legislation.
    And, I just want to reemphasize the earlier comments. This 
is not an attempt try to rig the numbers. This is not an 
attempt to try to help a State that may lose a congressional 
seat. This is an attempt to have an accurate enumeration. This 
is an attempt to apply the same standard used for overseas 
military bases to domestic military bases. We have a lot of 
people in Wisconsin, but I am sure there are a lot of people in 
New York and Illinois and other States who are sent to other 
States but who still pay taxes in those States and vote in 
those States they will return to after their military service 
is done within the same decade. I think it is very important 
that this legislation be passed and this will help our actual 
enumeration.
    Thank you.
    Mr. Miller. Thank you.
    We will proceed with Mr. Green next. And hopefully Mr. 
Gilman is here, and then we will go to questions.
    Mr. Green, welcome.

STATEMENT OF HON. MARK GREEN, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF WISCONSIN

    Mr. Green. Thank you.
    Thank you, Mr. Chairman. And thank you, members of the 
subcommittee.
    Mr. Chairman, as we approach the 2000 census, we also need 
to ensure a fair and accurate enumeration of the population. I 
know the chairman and the members of the subcommittee have been 
diligent in working toward this end, and I am grateful for this 
opportunity to testify before the subcommittee on my proposal 
regarding census protocol for prisoners who are convicted and 
sentenced in one State and temporarily incarcerated in another.
    To put it simply, I believe these prisoners should be 
counted as residents of their originating State for a number of 
common sense reasons.
    First, as we are all aware, a significant portion of 
Federal funds are distributed to States based upon population 
counts. In fact, the Census Bureau cites access to Federal 
dollars as a compelling reason to fill out census forms. If we 
count prisoners temporarily housed in other States as residents 
of those States, then the originating States will lose out on 
Federal dollars, and the temporary host State will essentially 
be paid twice.
    Second, despite the temporary location of prisoners in 
another State at the time of enumeration, the originating State 
continues to bear both financial and legal responsibility for 
the prisoner.
    Third, if the purpose of the census is to provide an 
accurate count that is accurate for any extended period, 
counting prisoners in the temporary host State will be 
inaccurate, as many of the prisoners only temporarily reside in 
those States. Every single prisoner who leaves the originating 
State starts off in that State and is required by contract to 
return to that State before they can be released or paroled. 
And during the period of parole, they will be in that 
originating State.
    And fourth, originating States like Wisconsin already 
compile all the data that the Census Bureau needs to 
effectively carry out an accurate enumeration of prisoners sent 
out of State. I say respectfully, contrary to the concerns 
raised by the Census Bureau Director, it is easy to count such 
prisoners. Arguably, this method will save the Census Bureau 
money.
    By way of background, as of June 4 of this year, Wisconsin 
housed over 3,700 prisoners in the States of Texas, Tennessee, 
Oklahoma, Minnesota, and West Virginia. This number, as the 
chairman alluded, is expected to grow by an additional 6,159 
prisoners by the year 2001, bringing the total number of 
incarcerated persons outside of Wisconsin close to 10,000, over 
50 percent of our prisoner population.
    I am here today because of the recently restated practice 
of the Bureau of the Census to enumerate the prisoners in the 
county in which they are incarcerated. While this policy may 
make sense for traditional incarceration models, I do not 
believe it makes sense with respect to the relatively new 
practice of States leasing prison space in other States. In 
other words, temporarily transferring such individuals to other 
States for incarceration before returning them to the 
originating States.
    This situation, I emphasize, is different than the prisoner 
counting scenarios that have traditionally been dealt with by 
census policy and the courts.
    Now, under the Census Bureau's current interpretation of 
the usual residence rule which you will hear a lot about today, 
there is currently no regard given to the fact that a 
prisoner's incarceration is being paid for by the taxpayers of 
another State, the originating State. And I think that is 
wrong.
    The Bureau bases its current practice of counting prisoners 
on the definition of usual residence as stated in the U.S. 
Court of Appeals. However, when the courts later reviewed the 
issues arising in that case in the district court case of D.C. 
v. United States Department of Commerce in 1992, the court 
stated clearly,

    The application of the usual residence rule could well be 
called into question by States which bear some of the costs for 
prisoners located in out-of-state penitentiaries. The level of 
support a locality needs to provide in order to claim residents 
for census purposes is clearly a decision for which there are 
no judicially manageable standards available.

    Despite the temporary location of prisoners elsewhere, 
States like Wisconsin, and there are about 30 such States in 
the Nation right now, clearly bear the majority of the costs 
associated with the prisoners' incarceration. They bear those 
costs during the out of State placement. Furthermore, because 
all such prisoners must return to Wisconsin before release or 
parole, Wisconsin bears substantial costs after the placement 
as well.
    Looking at it another way, if the 2000 census enumerates 
prisoners as residents of States that only temporarily host 
them, then those States which temporarily host those prisoners 
are essentially being paid twice for the same individual, once 
through the State-to-State agreement or contract and a second 
time through increased Federal aid distributed on the basis of 
those temporary prisoners.
    The other side of that, of course, is that the originating 
State is paying twice. Its taxpayers are paying much more than 
their share.
    Beyond the fiscal ramifications, the practice of counting 
prisoners as other than the residents of their originating 
State flies in the face of the basic purpose of the census. 
Again, since we know that these temporarily hosted prisoners 
under current practice, are only hosted for a short period of 
time, in most cases a year or less, we know that they must 
return to their originating State for processing, further 
incarceration, or parole prior to release. We know that there 
is a definite ending point to their temporary housing in the 
other State. Presumably the census was not intended to treat 
this short stay in another State as with a definite returning 
point and a definite location as residence.
    Does this all really matter? Well, I believe it does. The 
purpose of this legislation is not to deal with the issue of 
whether Wisconsin will lose a congressional seat. I tend to 
concur with the statement of Mrs. Maloney. I don't believe this 
will affect whether or not we have a congressional seat. At 
least, I hope you are correct.
    Instead, as we know, according to the Bureau of the Census, 
numbers are used to help determine the distribution of over 
$100 billion in Federal funds and even more in State funds. The 
GAO issued a report earlier this year which suggested the 
grants that may be apportioned will total $185 billion. While 
the numbers vary, the message is clear: The numbers matter.
    It is important to note that extensive information is 
compiled on prisoners in Wisconsin before they are transferred 
for temporary housing in another State. Wisconsin Department of 
Corrections collects data regarding the inmate's personal 
information, the county of conviction, and incarceration. This 
information is kept on the prisoner wherever they go, and in 
the case of a prisoner incarcerated in another State, that 
information is shared jointly between the two States.
    In fact, in Wisconsin, and I am guessing it is the same in 
most other States, all outgoing inmates are added to a data 
base where the aforementioned information is made available. 
Every Friday, the State updates the number of prisoners who are 
incarcerated elsewhere. The department of corrections in the 
States that house our prisoners can know in a matter of seconds 
where a prisoner is located and in what county the individual 
was convicted and incarcerated in.
    If the Bureau of the Census would partner with the State 
department of corrections, they could effectively gather this 
information to enumerate the prisoners in their home States; 
and instead of costing more money, you could argue it would 
actually cost less.
    It is the current practice of the Census Bureau to allow an 
institution to self-enumerate, which means that the institution 
staff would conduct the enumeration after being trained and 
sworn in by a census crew leader. The census crew leader then 
returns to pick up the forms. This was most often done for 
hospitals, prisons, and nursing homes. In the same manner, a 
Bureau crew leader could deputize an individual at the 
department of corrections who would be able to assign prisoners 
local originating addresses for census purposes.
    The Bureau of the Census has said that priority one for 
census 2000 is to build partnerships at every stage of the 
process. I would encourage the Bureau to partner with the State 
department of corrections for the benefit of a more accurate 
census. There is still plenty of time to count prisoners in 
their home States in the 2000 census. This information is 
already compiled. However, it is imperative that the Census 
Bureau and the State administrative agencies effectively 
partner to gather this information. It can be done.
    Mr. Chairman, I appreciate the opportunity to testify. 
Thank you.
    Mr. Miller. Thank you very much.
    [The prepared statement of Hon. Mark Green follows:]
    [GRAPHIC] [TIFF OMITTED]60341.012
    
    [GRAPHIC] [TIFF OMITTED]60341.013
    
    [GRAPHIC] [TIFF OMITTED]60341.014
    
    [GRAPHIC] [TIFF OMITTED]60341.015
    
    Mr. Miller. And we are pleased now to have the chairman of 
the International Relations Committee and a member of our full 
committee, Mr. Gilman.

STATEMENT OF HON. BENJAMIN GILMAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WISCONSIN

    Mr. Gilman. Thank you, Mr. Chairman. I want to thank our 
colleagues for conducting this important hearing. I am here to 
stress the importance of including Americans abroad in the 2000 
census. This morning, I come before you as a member who served 
many years on the International Relations Committee, but I also 
served on the former Post Office and Civil Service Committee, 
where we dealt with the issue of providing an accurate census 
count for many years. And I feel that that is so important, and 
I am pleased you are addressing this problem.
    In those roles I have had numerous dealings with our 
American citizens living and working overseas and can attest to 
the increasingly important role that that segment of our 
population plays in our Nation's economy and in our relations 
with other countries and their citizens throughout the world. 
As a matter of fact, in the last election, some 750,000 
citizens living abroad did vote, and they estimate there are 
close to 3 million living abroad who are working in government 
and in business overseas and want to be included in any census 
and want to be included in any political activity.
    In this era of growing globalization, we are well aware of 
the importance placed upon our Nation's exports and goods and 
services overseas in an effort to provide a strong and 
versatile economy. Not only are we reliant on Americans abroad 
to carry out exports for the creation of U.S.-based jobs, but 
we rely on these citizens to best promote and advance our 
interests throughout the world.
    Nevertheless, the Census Bureau does not count private-
sector Americans residing abroad despite the fact that 
government employees working overseas are currently included in 
the U.S. census. So, we have a discriminatory factor.
    This is an inconsistent and inappropriate policy, 
especially if the Census Bureau is true to its word that it 
wants census 2000 to be the most accurate census available.
    Accordingly, I am introducing a resolution expressing 
support for the inclusion in census 2000 of all Americans 
residing abroad, and I will be joined in that effort by Senator 
Spencer Abraham, who is introducing a companion measure in the 
Senate. Our resolution will direct the U.S. Census Bureau to 
include all American citizens residing overseas in its census 
2000, not just federally affiliated Americans, and expresses 
the intention of Congress to approve legislation authorizing 
and appropriating the funds needed to carry out that directive.
    And in closing, I would like to reiterate the need for our 
Census Bureau to count all Americans, including private 
citizens living and working abroad. Not only will such a policy 
provide an accurate census 2000, but it will allow Congress and 
private-sector leaders to realize how best to support our U.S. 
companies and our citizenry abroad. U.S. citizens abroad vote, 
they pay taxes in our country, yet they are discriminated 
against by our government solely because they are private 
citizens. Mr. Chairman, I hope that you will join with us in 
allowing us to change this policy to include private-sector 
Americans residing overseas in the census.
    American citizens abroad have devised an official overseas 
citizen census card that will obviate the necessity for having 
much bureaucracy involved. A very simple statement can help 
take care of that problem. And they can register with their 
passport numbers so there will be proper identification.
    Thank you, Mr. Chairman. I thank my colleagues for your 
patience.
    Mr. Miller. Thank you, and I thank all three of you for 
your statements.
    As you know, we do have a vote going on. But, Mr. Gilman, 
as you may know, we have Director Prewitt coming up next on the 
panel who can respond to a lot of the concerns and questions 
raised by all three of your statements, and after that, we have 
five members representing the different groups advocating the 
need to count overseas Americans that I look forward to hearing 
from. So, I am going to reserve my comments and questions 
concerning overseas to the next couple of panels.
    You are going to be able to return, Mr. Ryan. Are you going 
to be able to return, Mr. Gilman? You have other hearings, so 
you may not. I understand that. Do any of the members have 
questions of Mr. Gilman? Otherwise, we will take a break and 
come right back and continue with our questions for Mr. Green 
and Mr. Ryan.
    Mrs. Maloney. I would just like to compliment the gentleman 
from the great State of New York for his testimony today and 
his leadership on so many issues that are important to our 
Nation.
    Mr. Gilman. Thank you.
    Mrs. Maloney. And also to my colleagues, Mr. Ryan and Mr. 
Green. And I think you raised an important point. I know I am 
not supposed to question you now, but I just have to raise one 
area. When I read it, immediately I started thinking about New 
York State. And as Ben knows, we not only export prisoners but 
we move them around the State to the less populous areas of the 
State, the wilderness, and build prisons. So, if you take this 
to the next step the question is, would you then count them 
where they are in residence in a different area of the State?
    Also, in New York, as Ben knows, many social service 
agencies export foster care, adoption-ready children. There are 
a number of areas--we would have to research it--where we 
literally pay for the service. For example, in foster care we 
have some sites in Pennsylvania where many New York children go 
to sort of a country environment to be helped.
    So, you raise a lot of questions that not only apply to 
prisoners but all the other sort of government programs that 
move people around, whether out of State or within a State. And 
I think it is an issue that needs to be really studied on its 
ramifications, because if you are going to do it for prisoners, 
then the argument is you should do it for every other incident 
or example where someone may be moved around the State or out 
of the State yet still provided for mainly by the State.
    I just raise that as a question to be looked at, and again 
I thank anyone who has a thoughtful statement and interest in 
getting a more accurate count.
    Mr. Miller. Mr. Davis, do you have a specific question for 
Mr. Gilman?
    Mr. Davis of Illinois. No, Mr. Chairman.
    Mr. Miller. Mr. Ryan.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Miller. Thank you, very much. Mr. Green, if you will 
come back, we will recess for 10 minutes or so. As soon as we 
get our vote over, we will come right back.
    [Recess.]
    Mr. Miller. The hearing will continue, and we will 
reconvene the hearing. We will start with some questions.
    Mr. Gilman will not be coming back. Mrs. Maloney will be a 
little while before she is back and Mr. Green will be back. But 
let me start, if I may, with Mr. Ryan to clarify a little bit.
    This whole issue of military residents and the issue of 
prisoners brings up the complexity of the job that the Census 
Bureau really has. If someone signs up in the military and then 
moves to Pensacola and is stationed there, and family is there 
in school and they vote there, would they be counted there or 
how does your bill address it?
    Mr. Ryan. It is the home-of-record data. The Census Bureau 
went through this same quandary back in 1990. They chose to go 
with the home-of-record data over legal residence and other 
definitions because they thought this was the best way to do 
it. You don't have an income tax in Florida.
    Mr. Miller. Correct.
    Mr. Ryan. In States like Florida, legal residents and other 
definitions don't apply because they rely on income tax data, 
which you don't have. So, they chose in 1990 to go with the 
home-of-record data, which the court upheld 2 years later. What 
it means is for people, say from Wisconsin, who go to Pensacola 
and who continue to choose Wisconsin as their residence, pay 
taxes there, vote there, but are based in Pensacola, their 
home-of-record data is Wisconsin. They will be counted in 
Wisconsin. If they move to Pensacola and choose to claim 
Pensacola as their home of record, they will be counted in 
Florida. I think a lot of military residents do change their 
home of record to Florida because of income tax purposes. Those 
military personnel would be counted there.
    What we are saying is extend the same principle and policy 
that you use for overseas military personnel as you do for 
domestic military personnel.
    Mr. Miller. Let's take an overseas person. If they 
officially claimed Florida residence because of no income tax, 
but they are really from Wisconsin, where do they get counted?
    Mr. Ryan. Let me go to the definition of home of record, 
because I think that is the best way of clearing this up.
    In the fall back positions as defined in the Census Bureau 
in 1990, and my bill too, if there is no home-of-record data, 
you go to legal residence and then usual residence, the address 
a military member had upon entry into the service. This is the 
definition of home of record.
    Home of record is not the same as legal residence. If a 
military member changes legal residence after entering on 
active duty, he or she may not revert to claiming the home of 
record as legal residence without reestablishing physical 
presence and intent to remain in the State.
    Legal State of residence, that definition is: One must have 
or have had physical presence in the State and simultaneously 
the intent to remain or make the State his or her home or 
domicile. A person can only have one legal residence and 
specific actions must occur, such as what is listed for 
withholding income tax or where one is registered to vote. 
Because of States like Florida and Texas that don't have the 
income tax data, the Census Bureau, in 1990, decided to go with 
the home of record.
    So, it really comes down to that first definition, home of 
record. If that data isn't available, then it reverts to legal 
State of residence, but the home-of-record data is included in 
my bill to protect States like Florida and Texas, that don't 
have income taxes, that don't have that kind of data.
    Mr. Miller. We are operating under the 5 minute rule, but 
we don't have lights. But they are going to get cards flashed 
or something.
    Mr. Green, is there anything comparable to the prison 
situation--an analogy? People in nursing homes in another State 
or college students? Is there anything comparable to how they 
treat that?
    Mr. Green. In a way there is, by implication. The situation 
I am referring to is unique, or different than the other 
scenarios that have been raised, in that the individuals 
involved will begin their sentence in the originating State. 
They will return to the originating State. They will complete 
their sentence in the originating State. They will be paroled 
in the original State, so on and so forth.
    Part of my logic is that the temporary host State is 
already compensated for any services it provides, and the only 
services it provides, are those that are defined in my 
contract. In the case of students, for example, one reason that 
students are counted in their actual location, the temporary 
resident State, is that they consume services in that other 
State for which they are presumably compensated through the 
Federal Aid System.
    That same logic, if we decide State of residence for Census 
Bureau purposes based upon where they consume services, again I 
would argue that that logic would mean the originating State 
should be the State since that is the State which is paying for 
services and providing services. So, by implication, I guess 
that would be the parallel I draw. In terms of a precise 
scenario, I am not aware of one.
    Mr. Miller. I will be looking forward to Director Prewitt's 
testimony following this. How large of an issue is this? You 
said 3,500 in Wisconsin?
    Mr. Green. Temporarily projected to grow to 10,000 by the 
year 2001.
    Mr. Miller. How many States export prisoners? This is a new 
issue to me.
    Mr. Green. It is a new issue. This particular scenario is 
fairly new. That is why we bring it up now. This was not a 
common practice until rather recently. It is my understanding 
this didn't begin until the mid-1980's. It didn't begin in 
Wisconsin until the mid-1990's; 1995 or 1996 is when it came 
in, so it is a fairly new issue.
    Our best information is that about 30 States export 
prisoners. Those numbers are harder to come by than you might 
think. We have been talking with the council for State 
governments, NCSL. That is our best information.
    Mr. Miller. Thank you, Mr. Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. With all due 
respect to you and the State of Florida, I don't think I want 
to use that example when I ask my question. It seemed to be too 
many incentives. But, at any rate, Representative Ryan, do you 
know if there is any data on the number of individuals who 
might change or who have actually changed their residence in 
terms of point of origin or individuals who did go into the 
military and after having been stationed, maybe----
    Mr. Ryan. Change the home of record.
    Mr. Davis. Yeah, and another State actually changed their 
home of record?
    Mr. Ryan. I can't answer that question. We don't have that 
data, but we just asked DOD for home-of-record data. I just got 
this spreadsheet handed to me so we know that, as of July 1998, 
a total of 1,229,360 military personnel stationed in the 50 
States have home-of-record data. Illinois, this would affect 
29--a little over 29,000 military personnel. 54,000 military 
personnel are exported from New York to domestic bases. In our 
home State of Wisconsin 19,000 military personnel--this is a 
question that was just asked me before.
    I didn't have this spreadsheet until now. I don't have the 
actual difference between people who change their home of 
record who leave the State, but this answers part of that 
question.
    Mr. Davis. I know we are trying to get at the whole 
question of fairness and the issue of fairness and when we talk 
about fairness, I am often reminded of the discussion between 
the worm and the bird and somebody asks, is it fair for worms 
to eat birds or is it fair for birds to eat worms. And if you 
are a worm, you have got one answer. If you are a bird, you 
have got another answer. And, I guess, in terms of the numbers 
that States are looking for or just in terms of the accuracy, 
there is some unfairness that would probably result either way 
if they are individuals who would be stationed in one location 
home of record, but for all practical purposes, they have 
become residents of where they are. But let me go to 
Representative Green and ask a question----
    Mr. Ryan. If I could just mention one point on that. None 
of these definitions are perfect. One of the bases of the home 
of record definition that the Supreme Court used is that the 
Defense Department will pay moving expenses for a military 
person who, say, has an honorable discharge, leaves the Army, 
leaves the Navy and then goes back home. DOD will pay all his 
moving expenses.
    Home-of-record data applies to where they would send those 
people back, how they would cover those as moving expenses 
provided the person goes back to their home of record. If a 
person is in Illinois, goes to Fort Bragg in North Carolina; 
when their term expires in the military, where would they go? 
If it is back to Illinois, that would be their home-of-record 
data.
    So, that is the best attempt to try and get at the true 
home of the person in the military. If the person chooses to 
stay in North Carolina, reside in North Carolina, pay taxes in 
North Carolina, and after their term expires, live in North 
Carolina, then that is also included partially in this 
definition.
    Mr. Davis. Thank you. Representative Green, do you know how 
many other categories of individuals would need to be looked at 
if we took your position relative to the counting of prisoners?
    Mr. Green. I am not aware of any that would necessarily be. 
The reason I say that is because this scenario is different 
than nearly every other one that has been raised so far. The 
relationship and the location of the prisoner is defined by 
contract entered into between two sovereign States and is 
unlike the open-ended scenarios where a student goes to another 
State for a university and may not return and may not receive 
benefits from the originating State. In this case, we are 
talking about individuals that must begin their sentence in the 
originating State and must end their sentence in the 
originating State.
    They come back. It is definite. Unless they pass away, they 
have to come back and be processed. So, I think that makes it 
different than all the other scenarios that have been spoken 
of.
    And second, in this scenario, the temporary hosting State 
is compensated. It is compensated financially from the 
originating State. So, they are being offset for all costs 
incurred by reason of the prisoner being there and that is 
defined by contract.
    Mr. Davis. Would that not be the same for individuals who 
are sent out for treatment purposes? If the State of Illinois 
contracts with the State of Colorado to handle 50 young people 
with special mental health needs, would that not be the same?
    Mr. Green. Those individuals, again, would all depend on 
what type of order they are under. Those individuals wouldn't 
necessarily return to the home State.
    In my scenario, they have to. By law, they have to return, 
and I guess I am not as familiar with what the financial 
responsibility is. I am going for the State of origin.
    Mr. Davis. These are business arrangements. They are 
contractual business arrangements.
    Mr. Green. I guess what I mean is, in the originating 
State, in the Wisconsin scenario, the one I am most familiar 
with, Wisconsin during that entire time is paying over half the 
cost for those prisoners. I don't know what the scenario would 
be that you are referring to.
    Mr. Davis. Full cost.
    Mr. Green. That wouldn't be the case. Would those 
individuals have to come back and complete some kind of ordered 
time in their home State?
    Mr. Davis. They are citizens of the State of Illinois. I 
mean, they aren't Illinois residents and Illinois has the 
responsibility for caring for them. They just don't have the 
facility nor the service, or they find that it is more cost 
efficient to do it another way, as I would imagine that the 
State of Wisconsin is finding with its prison population.
    Mr. Green. I guess what I mean is, are those individuals 
being committed to the home State under a judicially imposed 
order with a beginning and starting point? That is the 
distinction I am trying to draw.
    Mr. Davis. Thank you, Mr. Chairman.
    Mr. Miller. Mr. Ryan.
    Mr. Ryan. I would like to ask Mr. Green a couple of 
questions. Just to clarify. What happens to a prisoner if the 
term expires while they are incarcerated in another State?
    Mr. Green. The term of sentence?
    Mr. Ryan. Yes.
    Mr. Green. They have to return to the home State for 
processing. They are still currently paroled in Wisconsin; they 
have to go back.
    Mr. Ryan. That is an important point, I think, as well. 
What do you think about the Bureau's response to your 
legislation that there is not enough time to implement the 
program for testing and evaluation?
    Mr. Green. With the case of Wisconsin, that simply isn't 
true. All the information that would be necessary for the 
Census Bureau to complete its work is already compiled and is 
updated weekly by the department of corrections.
    Again, since the State bares legal and financial 
responsibility, that information is absolutely accurate and is 
readily available.
    Mr. Ryan. Thank you.
    Mr. Miller. Did you have a concluding comment?
    Mr. Green. Mr. Chairman, if I could respond to a question 
raised by Mrs. Maloney before we broke just to clarify. She 
appropriately raised a question that I believe will be raised 
by the Census Bureau as to what the county of residence would 
be, and that is actually already determined under State law. It 
is the county of incarceration, or if there isn't a 
determinable county of incarceration, it is the county where 
those prisoners are processed.
    In Wisconsin, that is Dodge County. If the committee would 
be more comfortable by spelling it out explicitly in this 
legislation, we could do so; and I don't believe that would 
substantively change current law.
    Mr. Miller. Thank you. I have seen in articles, I think it 
was the Pine Bluff Arkansas, the annex for prisons into the 
county or city in order to increase their population.
    Some cities don't want the prisoners. It becomes a local 
issue too. Well, thank you very much for your presentation here 
today, Mr. Green and Mr. Ryan, as part of the panel. Thank you 
very much. We will proceed to the next panel. Director Prewitt 
will be coming up and we will proceed.
    [Witness sworn.]
    Mr. Miller. Let the record show that Dr. Prewitt answered 
in the affirmative.
    We have three issues brought up by the Members and I would 
like to let you proceed and enlighten us.
    Mr. Prewitt. Thank you very much, Mr. Chairman, and to Mr. 
Davis, Mr. Ryan.
    Mr. Miller. Put the microphone a little bit closer to you.

  STATEMENT OF KENNETH PREWITT, DIRECTOR, BUREAU OF THE CENSUS

    Mr. Prewitt. I started with the obligatory thank you. I 
would like to rerecord my thank you to the chairman, to Mr. 
Davis, Mr. Ryan, and Mrs. Maloney for this opportunity to 
testify this morning.
    I want to emphasize at the outset that the issues that have 
been put on the table are difficult and complex, as has already 
been alluded to. But they are also ones with which it is very 
easy to sympathize and appreciate the motivations behind the 
bringing these three pieces of legislation to the table.
    They are difficult and they do, we think, deserve a 
thorough study before we would change major policy, especially 
policy with respect to usual resident concepts, either with 
regard to prisoners or U.S. military personnel outside their 
home State. It is extremely important that any policy changes 
are consistent with the original intent of the census to 
determine the whole number of persons in each State for 
purposes of apportionment.
    And if the Congress believes that all America's private 
overseas citizens should be included in the decennial, then we 
would urge that, at first commission, some indepth studies that 
would shed light on these complexities, and I will get to these 
complexities momentarily.
    Let me address first the issue of Americans overseas, as it 
has been recommended by Mr. Gilman. The Census Bureau staff did 
meet with representatives of the Census 2000 Coalition on this 
issue in early May to discuss their reactions to our concerns 
and their proposals for overcoming these concerns.
    And after carefully reviewing the coalition's proposals and 
studying the viability of the technical aspects involved, the 
Bureau has concluded that it cannot credibly enumerate the 
population of American citizens living abroad for census 2000. 
There are conceptual issues, such as whether to count retirees 
and other persons unlikely to return to the United States. We 
have serious concerns about our inability to validate responses 
and, of course, about the complex operation of such a worldwide 
enumeration.
    I would like to, at this moment, simply draw your attention 
to the form which has been presented here for our attention. 
And I would like to say for the record, sir, that I would urge 
that before these forms are circulated any wider, that they say 
in bold print that this is not an official government document.
    It does not say so now. It gives every resemblance to 
something that is an official U.S. document. It uses the 
official U.S. Bureau Website. If you turn over to the address 
page, anyone picking this up would presume they should mail 
this back to the U.S. Bureau of Census. I only use this to 
suggest how complex this issue is and how very well-intentioned 
efforts to cooperate can run up against some difficulties, even 
the presentation of forms which would suggest that the U.S. 
Census Bureau has decided to count the population and already 
has designed a form and distributed it.
    So, I would urge our friends and colleagues who are 
concerned about this issue to please not circulate this 
document without identifying it as not an official government 
document. Thank you.
    Let me then turn to the question of accuracy and why we 
have such concerns about the accuracy of the information we 
could obtain from any attempt to enumerate private American 
citizens overseas. The difficulty is we cannot accurately 
estimate the size of the universe of this population, so we do 
not have the means of controlling and checking its progress as 
we do here at home, where we use the master address file to 
control the enumeration.
    Embassy and consulate lists of American citizens living in 
their jurisdictions generally are outdated or incomplete, since 
there is no requirement for citizens to register with them upon 
entering or leaving the country.
    What we do, as you appreciate in the census, of course, is 
we do ask people to mail in the questionnaire. For those who 
don't, we have very precise processes of doing a non-response 
followup. Up to six return calls, three personal calls, three 
telephone calls, making all kinds of efforts and then close-out 
procedures because we start with some sense of the universe 
that we are trying to reach. And we use the address file as the 
marker or the denominator for what we think the universe is.
    With respect to the Americans overseas, we simply have no 
way of knowing what that universe is and, therefore, no method 
of trying to find the non-respondents. So, in effect, it 
converts the overseas census into a voluntary census, which is 
fundamentally different from the stateside census which is not 
a voluntary, but a mandatory census. And the Census Bureau does 
everything it can to reach everyone.
    We are not sure what the procedures are by which we would 
try to reach everyone. As Mr. Gilman said, his resolution calls 
for us to count all Americans overseas. It is not clear how we 
will do that, and that is why I want to stress that there is 
something fundamentally different between the proposal that's 
on the table and the stateside census which starts with a 
control factor, the master address file, and then uses non-
response followup to try to reach as complete a count as it 
possibly can.
    Now, what are the implications of that? Congressman Miller, 
in your covering memo, you used the estimate of 3 million 
Americans and then suggested that perhaps we would count as 
many as 1 million of them. That is, you would recognize that 
there could be an undercount of 66 percent, fairly high 
undercount as a census goes.
    Ms. Schooneveld says that perhaps the number of American 
citizens abroad is 5 to 6 million. Let us say 5. If we counted 
a million of the 5, we would have an undercount of 80 percent. 
There are other documents, their own newsletter that says the 
overseas count may be up to 10 million, which means we would 
have an undercount of 90 percent.
    So whether it is a 66 percent undercount or an 80 percent 
undercount or a 90 percent undercount or only a 50 percent 
undercount, we have every reason to presume it is a fairly high 
undercount. Without the capacity to go out and check on it, we 
don't have a control factor like we have with the master 
address file stateside.
    Now, why is that consequential? There is no a priori reason 
to presume that this high undercount would be distributed 
across home of record proportionate to the true distribution of 
home of record for the overseas Americans. Let me give you a 
simple example, hypothetical.
    Let us say that we did a particularly good job in Mexico 
where many, many Americans live in retirement communities and 
so forth. We did a very poor job in Canada, where there are 
also a very large number of overseas Americans. The reason we 
did a poorer job in Canada, of course, is Canadian-Americans. 
Americans living in Canada are not required to have passports. 
Whereas in Mexico, let us say we did a better job.
    Now, if that were to happen, we do better in some parts of 
the world than other parts of the world, the question we would 
have to ask ourselves: Are the people, the Americans who live 
in those different parts of the world, randomly distributed or 
proportionately distributed according to home of record? My 
guess is that the Americans living in Canada are much, much 
more likely to come from the northern tier of the States, and 
the Americans living in Mexico are much more likely to come 
from the southwestern tier of the States.
    So, if we did a very good job counting in Mexico and a very 
poor job counting in Canada, then we would have produced a 
distortion to the apportionment accounts. It is a distortion to 
the magnitude that we could not estimate, nor could we correct 
for it. I think the implications of not being able to reach 1 
out of 3, or 1 out of 5, or 1 out of 10, or 1 out of 2, the 
magnitude of the undercount would be such that we would 
necessarily introduce some distortions into the apportionment 
account.
    That would, of course, invite litigation and all the other 
kinds of concerns that have already been expressed by this 
Congress with respect to the implications of the undercount. 
When the undercount is 1.5 percent and we have mechanisms to 
try to reduce it, then it is a very different phenomena than if 
it is a 50, 60, or 70 percent undercount because the level of 
distortion and apportionment numbers is accordingly large.
    We take very seriously this question of accuracy and 
completeness, as you appreciate. And we have a particular 
problem with the overseas Americans. We simply do not have a 
current solution to that problem. If we had one, we'd put it on 
the table, and we would be happy to talk to the U.S. Congress 
about how to respond to this legitimate concern; but, we do not 
have a solution to this issue.
    Second, we do not have a ready solution to the problem of 
validation and verification. We very much appreciate the work 
by the counting citizens abroad group, in terms of trying to 
use passports as a validation and verification process.
    We feel there is real hope in that strategy. We'd like to 
investigate it further. There is a big difference between how 
we count U.S. military overseas and how we would have to count 
the private citizens overseas. The U.S. military overseas count 
is based upon administrative records and the Federal employees 
overseas is based upon administrative records.
    We have every reason to presume that we get a complete 
count or a reasonably complete count, and certainly a highly 
valid count, from working with the Department of Defense and 
the Department of State, with respect to their own employees.
    The military and Federal employees differ from the private 
citizens. One is mandatory because you are using administrative 
records. It is not that someone could self-select themselves 
out of the count if you are in the U.S. military on a military 
base, but if you are a private citizen, because it is 
voluntary, you could decide not to be counted and we would have 
no way of knowing the magnitude of that.
    Second, for the military Federal employees, we use 
administrative records. For private citizens, they are 
recommending we use a postcard, the sort I already identified. 
For military and Federal employees, we have well-established 
procedures to make sure there is no possibility of fraudulent 
responses. With respect to the private citizens overseas, it 
would be extremely difficult to validate and make sure every 
record did match the people that had responded in the way they 
responded.
    For military and Federal employees overseas, we have a low 
to zero undercount problem. I have already suggested for the 
private citizens, we'd have a very high undercount problem. And 
I have suggested for the military and Federal employees 
overseas, we had reasonably good precise ways of allocating 
them back to their home of record because the administrative 
records make this very clear.
    With respect to the private citizens, we have the potential 
for high levels of misallocation, therefore the possibility of 
distorting the apportionment accounts. So, the problem of 
accuracy and validation really does beset this very complicated 
problem when we simply don't know whether it is 2 to 3 million 
or 8 to 9 million residents.
    Let me then just quickly turn to the operation of 
complexity. Even if we could solve the problems of accuracy, 
validation and verification, we would run into, as we 
appreciate, very complicated operational problems. Processing 
results from this enumeration would require the matching of 
files, development of procedures for resolving matching 
problems, and deciding how to handle unmatched cases.
    Where would these matching problems come from? Well, with 
respect to the military and the Federal employees living 
overseas, we use the administrative record to count them and 
their dependents. They don't know they've been counted. We work 
that out with the Department of Defense.
    And so then, we would suddenly have a form like this 
floating around. There is absolutely no reason to imagine that 
a dependent for the State Department or military dependent 
wouldn't see this and say, oh, my goodness, we want to be 
counted in the census, therefore we better send this in. We've 
already counted them in the administrative records from the 
Department of Defense.
    We have a serious matching problem, and we don't have a 
mechanism by which we could unduplicate those forms, so we 
would be introducing double counts, as well as undercounts, in 
the overseas population.
    Indeed, to make an earnest and effective attempt to reach 
this population, the Census Bureau would need to obtain the 
commitment of considerable staff support from the State 
Department. The State Department would have to provide address 
lists of embassies and consulates by countries worldwide, along 
with the current estimates of the number of American citizens 
living in each embassy and consular jurisdiction. We all know 
those records are defective and incomplete.
    The State Department would be the primary agent for most of 
the logistics associated with the overseas publicity of the 
enumeration along with the distribution of the bulk of the 
census forms. And, indeed, if the overseas form asked for 
passport numbers, as has been recommended, the State Department 
would have to match a file of passports on the overseas forms 
with their official passport files.
    And, indeed, we have been in contact with the State 
Department. They do suggest to us that there are very 
complicated things involved in this and it would be costly. The 
Census Bureau, of course, would have to compensate the State 
Department for its efforts in this regard.
    Indeed, I can conclude my comments on this with simply 
mentioning the cost. We would need 1999 funds because we would 
have to start doing preparatory work immediately, which means 
another supplemental. As we appreciate, it would not be 
difficult to get it through the Congress at present. Of course, 
we would have to increase our 2000 budget. I can't offer if it 
is a large number or small number, but certainly we'd have to 
redesign our budget and redesign our master activity schedule. 
There would be a very large number of procedures at this stage 
which we would have to introduce if we wanted to do this right.
    Now, could we do a poor job, a sloppy job, an inaccurate 
job, a job which might risk distorting the apportionment 
numbers? Certainly. Would the Census Bureau want to do that 
kind of job? Of course not.
    So, we would urge Congress that if we want to change policy 
with respect to this very, very serious issue, that it is done 
so only on the basis of some systematic work that has yet to be 
done. I can only apologize that it has not been done, but it 
will itself be costly and require some serious investigation of 
how to do it.
    Let me turn quickly to H.R. 1632, which relates to how we 
would count prisoners abroad. Now, many of the Census Bureau's 
concerns have already been voiced by questions from Mr. Davis, 
from yourself, and from Mrs. Maloney, when she was here. The 
way that we count prisoners and other institution populations 
of the State in which the institution or facility is located 
is, of course, consistent with the usual residence concept the 
Census Bureau has used to decide where to count people in the 
census. This is a principal first used by the Congress for the 
census of 1790. It is defined as the place where the person 
lives and sleeps most of the time.
    Usual residence is not necessarily the same as the person's 
legal residence. The usual residence concept was approved by a 
U.S. Court of Appeals in 1971 and reconfirmed in a 1992 
decision by the District Court for the District of Columbia, 
where some of these questions of counting prisoners were 
addressed in the court system. The judgment has been that the 
way we do usual residence is neither capricious nor arbitrary.
    This legislation, if passed, would mandate an exception to 
the judicially approved usual residence concept and doing so, 
as the questions have already indicated, could open up a 
Pandora's box or pressures for other exceptions to our 
residency rules.
    It has already been noted by Mr. Davis and Mrs. Maloney 
that there are other out-of-State programs. I very much 
appreciate the distinction that Mr. Green made with respect to 
whether they are contractually obligated to come back to the 
State. That may be a workable distinction. Mr. Green himself, 
in his testimony, spoke compellingly of Wisconsin's level of 
information on this, though Mr. Green did say that their home 
of record in Wisconsin only took them back to the county.
    Now, as you appreciate, a major oversight committee for the 
census, that coding someone back to the county of residence is 
inadequate, of course, for redistricting purposes and Federal 
funding purposes. We have to simply code them back to a lower 
geographic detail than the county.
    We appreciate the fact that Wisconsin may have very good 
records, but we could not use them. We would have to get a home 
address that we could geocode down to the block level, of 
course, to be consistent with the rest of our census.
    As Mr. Green himself acknowledged, he cannot even get a 
good count of how many other States export prisoners, let alone 
how many other States have data of the quality that Wisconsin 
has, which is already defective for our purposes.
    So even though we can acknowledge that there could well be 
this data available, we would now have to visit all 50 States 
to find out the quality of their recordkeeping for their 
exported prisoners, even before we get to the issues that Mr. 
Davis raises, which are non-prisoner exported personnel.
    It raises all of the issues that have already been put on 
the table, and I don't have to try to repeat them yet again. We 
would have to also develop new procedures for working with 
prison administrators on a case-by-case basis. Without testing 
and evaluation, we could not know whether prison officials 
would have good records that would show the 50 percent marker, 
that is, is this particular prisoner's incarceration paid for 
at a 50 percent level.
    A contract between States may indicate that one State has 
to pay another a certain lump sum per prisoner, but not 
indicate the total cost of custodial care. Therefore, it would 
be up to us to decide whether 50 percent was met. It may well 
be that Wisconsin contracts make that very specific, but it may 
well be that some other States are vaguer on that. It just 
simply may be a payment per prisoner. We would then have to 
determine whether it met the 50 percent rule.
    The bill is also silent on whether this is only for State-
supported prisoners and State-run correctional facilities or 
whether prisoners and facilities at the local level, as well as 
privately run prisoners, would be included. And, of course, the 
bill makes no reference to Federal prisoners who are, in 
general, more likely to be incarcerated outside their home 
State. These are some of the issues that would have to be 
resolved before we could begin to implement Mr. Green's 
legislative initiative.
    Finally, if I can turn to Mr. Ryan's legislation quickly, 
we have had that legislation for a very short time. I 
appreciate how sometimes things take a while to turn themselves 
out. That's even true at the Census Bureau. And therefore, we 
haven't given it the kind of time and attention that we would 
like to.
    As has been established, we do count U.S. military and 
their dependents assigned overseas back to their home of record 
using again, I stress, agency administrative records. And I 
think what Mr. Ryan would like us to do is try to extend the 
policy that we now use for overseas military to stateside 
military, but I do want to stress that in the overseas military 
populations we do not enumerate. We do not count individuals. 
We only use the administrative record and use the home of 
record back to the level of the State, not down to the level of 
a district or a block or something.
    So, we only put them into the apportionment count and not 
into, of course, the districting or Federal funding formulas. 
We have some concerns with Mr. Ryan's legislation because, 
again, it mandates an exception to the usual residence concept 
for the U.S. base military living stateside, and it could lead 
to other challenges to the idea of usual residence. We are just 
reluctant to open that door until we have done the kind of 
investigation that would find out what kinds of exceptions 
might be put on the table, what would the implications be, and 
what would this do to a 200-year practice of usual residence.
    Mr. Ryan makes reference, understandably, to paying taxes 
back in the home State, to having a legal residence in the home 
State, and so forth; and that does begin to change where you 
are living and sleeping, which is our usual residence criteria. 
Mr. Ryan made reference, for example, to the fact that the 
military does keep records, so they know where they have to 
ship them back after they've either been honorably discharged 
or in other words left the military.
    I can't resist one anecdote. I lived abroad. I have lived 
abroad for a large number of years at different times in my 
professional career. Back to the Americans overseas issue, I am 
aware that sometimes when I lived abroad, no one knew for sure 
where I was and did not check in with local embassies or local 
consulates; but one thing I do remember, Mr. Ryan, was that I 
was also under a program that allowed me to identify my home of 
record for purposes of bringing me back.
    Well, at that time, I was living in Chicago with my family, 
but we also spent some summer time in California. Needless to 
say, my home of record, because I was in east Africa, became 
California. It became the point furthest from where I was, 
which then allowed us maximum opportunity to return to almost 
any place we chose to at the end of our tenure.
    So, even home of record, for the purpose of moving people 
back, is a manipulable, if you will, or changeable or self-
designated criteria and is not necessarily consistent with 
one's legal residence or where they vote. I don't know how good 
the military is at policing that particular thing, but I 
wouldn't, myself, want to count on it as the marker of what 
recreates a usual residence.
    With respect to U.S. military living stateside now, we do 
conduct a standard enumeration. They are asked all of the same 
questions asked of the civilian population that are included in 
all the detailed accounts and characteristics we tabulate in 
the census.
    That is, we would be very hesitant to move the stateside 
military to an administrative count, only because, after all, 
they are living in the United States. We would like all the 
kinds of standard demographics and characteristics we can for 
them. So, to enumerate their home of record at this stage would 
either require--as Mr. Ryan pointed out--matching our forms 
with the Department of Defense to make sure we had an accurate 
home of record recording, or we would have to redesign our form 
to allow us to get them to record what they judge to be their 
home of record, raising all the questions that Mr. Davis has 
already brought to the table.
    When do they make decisions about whether they want to be 
in Pensacola, back in Wisconsin and so forth? And I would just 
suggest, without making a speech yet again, it is very late in 
the census cycle to try to change those kinds of procedures and 
not run the risk of introducing errors into the census. Just as 
we sit here today, Mr. Chairman, Mr. Davis, Mr. Ryan, there are 
80 semitrailer trucks on the roads today delivering 136 million 
census forms, which is only a portion of the census forms, to 
our redistribution center in Jeffersonville.
    As we think of the census starting on April 1, the census 
has started. We are now doing the things that make this census 
work, and we are very hesitant to change fundamental rules of 
residence procedures or change procedures of how we count the 
Americans overseas at this stage in the decennial cycle.
    Thank you, sir.
    [The prepared statement of Mr. Prewitt follows:]
    [GRAPHIC] [TIFF OMITTED]60341.016
    
    [GRAPHIC] [TIFF OMITTED]60341.017
    
    [GRAPHIC] [TIFF OMITTED]60341.018
    
    [GRAPHIC] [TIFF OMITTED]60341.019
    
    [GRAPHIC] [TIFF OMITTED]60341.020
    
    [GRAPHIC] [TIFF OMITTED]60341.021
    
    [GRAPHIC] [TIFF OMITTED]60341.022
    
    Mr. Miller. Thank you, Dr. Prewitt. Let me ask you a couple 
of questions about U.S. citizens overseas. Again, we're under 
the 5-minute rule ourselves here. It is a problem that 
obviously has been around for a while, and I know you and the 
other people at the Bureau have met with the representatives of 
the different organizations. I know I have and I know my staff 
has. I think we philosophically agree they need to be counted 
because, as they point out, we count illegal aliens in the 
United States; we count convicted felons serving time in 
prison; but Americans overseas don't get counted.
    I have a very legitimate argument. My impression is their 
motivation is being good citizens. They feel it is a right just 
like voting is a right. So, the question is, what do we do 
about it?
    Could you enlighten me a little bit on the history of this 
issue at the Bureau? Obviously before your time, but have we 
tried to do it in the past?
    Mr. Prewitt. Yes, sir, we tried in 1960 and 1970, 
particularly in 1970. We were so disappointed with the count 
that we chose not to introduce it into the apportionment 
counts. We were afraid it would introduce more distortion than 
not. We made a count. We reported the count. We can find 
tabulations of American overseas living abroad in 1970, and we 
were unable to certify it to the level with which we felt 
comfortable bringing it to the apportionment counts.
    We made a serious effort. We contacted the same kinds of 
groups represented here: chambers of commerces, embassies, 
churches which have missionary programs abroad, corporations, 
and so forth. And at the end of the day, we felt like we had 
not done an adequate job.
    Could we do a better job in 2000? I would hope so. Could we 
do an even better job in 2010? If we started with some better 
sense of what the base population looks like and how they are 
distributed and what the quality of the administrative records 
are at universities who send many, many scientists abroad, 
churches who send many, many missionaries abroad and 
corporations who send many, many employees abroad and the 
retiree population who simply lives abroad and does not intend 
to come back. We simply need a map of that phenomena before we 
would be comfortable doing the level of job which we could come 
back and recommend to the Congress that it become a part of the 
apportionment counts. Yes, we had a bit of experience; but it 
was not a very happy experience.
    Mr. Miller. For the past several years gearing up for the 
2000 census, I am sure you have had people studying the issue 
and trying to figure out how to do it. Any ideas or 
possibilities how it could be done? I am impressed with what 
this group has proposed. I agree with you. We want to make sure 
that is not circulated as an official form, but the fact they 
drafted their own form indicates a real commitment and 
interest.
    Mr. Prewitt. I appreciate it. With you, sir, I don't 
dispute the motivation or the legitimacy of the concern. I do 
remind you that the U.S. Constitution requires us to count all 
residents of the United States. That is why we count illegal 
aliens and felons. We are being consistent with the U.S. 
Constitution. The U.S. Constitution, of course, is silent on 
counting non-resident citizens. So even though this is a good 
faith effort, it is complicated, because we have made the 
decision to count U.S. military and Federal employees overseas.
    The policy that guides that decision is that we have every 
reason to presume that this is a temporary assignment overseas, 
and that they are coming back. The groups concerned about 
overseas Americans have brought to our attention that they do 
have large numbers of Americans who do not intend to come back 
but still have a right to be counted.
    I think that is an understandable statement on their part, 
but it is a fundamental change in policy. I would urge the 
Congress not to make that change in policy without having a 
better sense of the dimensions of that issue.
    Mr. Miller. The State Department estimates 3 million 
abroad. We don't know what the number is whether it is 5 
million or 10 million. Your point of view is a voluntary 
overseas census that may only get a 30 percent response is 
worse than zero?
    Mr. Prewitt. Well, it is for apportionment purposes. Unless 
you make the assumption that the volunteers and the non-
volunteers are distributed across the States proportionate to 
the true count--Mr. Miller, you have taught this. You know that 
self-selected samples--we are talking about a sample, right, a 
self-select sample, a volunteer sample is a biased sample.
    It goes back to my illustration. If we ended up 
undercounting, disproportionately, Canadians and overcounting, 
disproportionately, Americans living in Mexico, then unless the 
people living in Canada and Mexico came equally from the same 
States, we would have penalized and rewarded States 
differently.
    So my concern is, yes, that a 1 out of 3 introduces air 
into the apportionment count, unless we make a statistical 
assumption that the people who are not counted are distributed 
across the State of record exactly the way the people who are 
counted. Otherwise, you are allowing volunteers to determine an 
apportionment count which is inconsistent with the fundamental 
policies that govern the Census Bureau.
    Mr. Miller. We will hopefully have a second round. Mr. 
Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. Dr. Prewitt, 
you have talked about the discrepancy between projections. Some 
people say there may be 3 million. Somebody else may say 10 
million Americans living abroad. How do they make these 
projections? And if there is that much discrepancy, could there 
be any reliability at all?
    Mr. Prewitt. Well, Mr. Davis, I will let you ask the next 
panel. I am quoting from their own newsletter and one of the 
witnesses is the one who's introduced the number of 5 to 6 
million. Their newsletter introduced the number of 10 million. 
I don't know where those numbers come from. The number of 3 
million is, as I understand it, a State Department estimate 
based mainly on embassy and consulate records.
    I simply know too many Americans living abroad who have no 
relationship with the local embassy. They have no reason to. 
They've been retired in southern France. They've been working 
in Canada for so many years that they simply don't even manage 
to maintain their passports. They think of themselves as 
permanently living abroad.
    They may still even want to vote for whatever reason, but 
they don't necessarily maintain a close connection with their 
embassy. The State Department estimate is the only one I know 
that exists, and I have no reason to presume that it is very 
accurate. So, a very wide variation.
    Mr. Davis. So when we got beyond the State Department, I 
mean, they've got something to go on seemingly.
    Mr. Prewitt. Right.
    Mr. Davis. Then we just don't have any idea of where the 
others really come from; and if we did, we probably wouldn't 
have much possibility of finding those people anyway, would we?
    Mr. Prewitt. Mr. Davis, I dislike talking about the census 
by anecdote because I get too many anecdotes, and the census is 
about systematic information. But I could give you anecdote 
after anecdote after anecdote of Americans I know living abroad 
who I know the Census Bureau could not find.
    What proportion that is, I don't know, but I do know right 
now, unless we did some pretty systematic work, there are large 
numbers of Americans--I asked my friends in statistics about 
Canada the other day. I said could you help us count the 
Americans living up there. They said, yes, if they are 
employed, because we could use our work permit system; but if 
they are unemployed--they are just retired--we don't have any 
idea whatsoever.
    That is an interesting revelation because it is much easier 
to get import data than export data. That is true for trade 
data, as well as people data, because States have a reason to 
sort of want to know who's coming into their country. They have 
less of a need to know who's leaving their country. So even 
Canada, which has very good import data, could not tell me how 
many Americans were living up there unless they were employed 
and, therefore, had work permits.
    Mr. Davis. When you get through with the census, do you 
expect to have any money left?
    Mr. Prewitt. That's a serious question, Mr. Davis. Let me 
answer it seriously. If the budget that we have now presented 
to Congress is passed--which we have our fingers crossed--and 
if the response rate is higher than our estimated 61 percent; 
and we are getting increasingly enthusiastic about the power of 
our partnership program, our promotional program, our 
advertising program, all of which are on track, we may get that 
response rate above 61 percent. If it gets very far above 61 
percent, the census in 2000 will cost less money than we are 
now projecting, yes, sir.
    Mr. Davis. So, I guess my point is, if we went to some of 
the extraneous logistical difficulty of trying to count the 
individuals now that we are talking about, trying to find them 
and also dealing with the individuals in the military, we 
probably would have to appropriate or even authorize some more 
money in order to----
    Mr. Prewitt. We could not afford to spend 2000 money on an 
additional procedure. All of the 2000 money is very, very 
tightly connected to the current procedures that we have 
recommended to the Congress that we use. If we were to do a big 
study of this problem in say, 2002, 2003, an investigation of 
how well we could do it, I can't sit here today and say there 
would not be resources left over from 2000 to do that study.
    If not, we would obviously have to come back to the 
Congress and ask for an appropriation to do it. But certainly 
to do it in 2000, this simply is not budgeted. It is not even 
budgeted in 1999. So we clearly would have to be coming back 
immediately in 1999 for a supplemental.
    Mr. Davis. Thank you very much.
    Mr. Miller. Mr. Ryan.
    Mr. Ryan. I want to thank you for coming today, Mr. 
Prewitt. It is nice to hear from you. I would like to ask you 
some historical questions with respect to the military on their 
counting. Prior to the 1990 census, how were overseas military 
personnel counted?
    Mr. Prewitt. Help.
    Do you have reason to know that we did not count them 
prior--we counted many----
    Mr. Ryan. Your methodology is what I was concerned with.
    Mr. Prewitt. It was administrative record methodology, 
supplemented with a survey on home of record. Is that what you 
are getting at?
    Mr. Ryan. Right, but home of record was introduced 6 months 
prior to the 1990 census; is that correct?
    Mr. Prewitt. The survey to do home of record, yes.
    Mr. Ryan. So in 1990, 6 months prior to the census, they 
introduced the home-of-record methodology and the Census Bureau 
with the Defense Department put together a partnership to share 
those administrative records to then do so on the home of 
record.
    Mr. Prewitt. Correct.
    Mr. Ryan. So, the usual residence concept for military 
personnel was changed by 1996 much prior to the----
    Mr. Prewitt. The usual residence, I don't think, was 
changed. What we did was get better data.
    Mr. Ryan. You used home-of-record data. You were planning 
on doing the same kind of partnership with the Department of 
Defense with respect to these overseas personnel, correct?
    Mr. Prewitt. With one new change. They are now making us 
pay for it, but yes, sir.
    Mr. Ryan. You have been appropriated that, right?
    Mr. Prewitt. Right.
    Mr. Ryan. In your testimony, you said with respect to 
activity of military personnel overseas, that you have 
reasonably good and accurate ways of allocating them back to 
their home of record dated 10 years ago, doing it again with 
more precise methodology. Doesn't that same concept hold for 
those who are stationed here at home?
    Mr. Prewitt. I think you are absolutely right, Congressman. 
With just two qualifications, if I could. One, I cannot tell 
from your bill whether you would expect home of record to be 
geocoded down to the block level for redistricting purposes 
or----
    Mr. Ryan. Let's use it for the argument, for the sake of 
apportionment.
    Mr. Prewitt. That would be the first qualification. That 
helps a lot. That makes the task much, much more easy than 
coding back to some local address.
    Mr. Ryan. Let me limit it, for purposes of apportionment. 
You are already doing that. You have already got the 
partnership with the Defense Department. You are doing it with 
overseas personnel. You didn't decide, but in 1990, they 
decided 6 months prior to the census. And I realize you have a 
timeline; trucks are already leaving. But we are able to 
accomplish this kind of change with overseas personnel 6 months 
prior to the 1990 census. It seems fitting that we could 
accomplish this at this point in time, with respect to 
extending it to domestic stateside military personnel.
    Mr. Prewitt. I understand your question, Mr. Ryan.
    I think the big, big, big difference, however, in 1990 with 
respect to that population group and in 2000, with respect to 
the population group you are concerned about, is the population 
group in 1990 starts out as an administrative record count, 
which we then supplement so we are dealing with the people who 
manage the administrative records.
    The population that you are concerned about, that is, the 
domestically residing military, we start out as an enumeration 
census, not an administrative census. Therefore, it would 
require a fundamental and big time change in our procedures 
quite different from what 1990 did; 1990 was a supplemental of 
an administrative record. This is taking an enumeration census 
and somehow coordinating it to an administrative record census. 
Could we work on getting those procedures in place? We would 
certainly work on it if this legislation passed. It is a 
different phenomena than 1990.
    Mr. Ryan. It certainly seems like you could, because you 
already have the partnership with the Defense Department. You 
already have the administrative records available.
    Mr. Prewitt. But we don't for that population group. It's a 
different partnership.
    Mr. Ryan. In 1991, the Census Bureau determined that the 
home-of-record data was more accurate for military personnel 
than the legal residence definition or last duty station 
because legal residence was done largely for tax purposes. Last 
duty station is even more imprecise because it could have been 
a very, very short duration. Why are you using home-of-record 
data? Isn't it because of those reasons that home of record 
seems to be a preferable definition for overseas personnel with 
respect to legal residence or last duty station?
    Mr. Prewitt. Correct.
    Mr. Ryan. Why is that inconsistent to then extend that 
definition to stateside personnel?
    Mr. Prewitt. Because with stateside personnel, we have a 
real residence. We have where they are living and sleeping and 
therefore----
    Mr. Ryan. They are living and sleeping in Germany and other 
places.
    Mr. Prewitt. No, no, no. That is very, very different. We 
don't have apportionment rules or districting rules governing 
living and sleeping in Germany. We do have apportionment rules 
governing living and sleeping in Pensacola or Fort Bragg. We 
have a usual residence rule that for the domestically sided 
military does place them into the official counts that this 
country uses for apportionment purposes, and it is where they 
are living and sleeping. It is fundamentally different to sort 
of translate the overseas military into the domestic situation.
    Mr. Ryan. So, for the purposes of apportionment, it seems 
relatively easy, but so you are saying for the purposes of----
    Mr. Prewitt. It is easier.
    Mr. Ryan. More difficult and challenging for redistricting 
and funding reasons, but the question probably then comes down 
to is it easy? Probably not. Is it doable?
    Well, I would contend that it is doable, simply because you 
have the partnership with the Defense Department; records are 
available. Yes, it may take some more work, but at the end, 
isn't the most accurate enumeration our true goal here?
    Mr. Prewitt. Yes, sir. We have defined most accurate 
enumeration, as when possible, using our usual residence rules, 
which we do use for every other purpose other than the overseas 
military----
    Mr. Ryan. Which were modified with respect to military 
personnel in 1990.
    Mr. Prewitt. No, we used usual residence. Home of record 
was our definition of usual residence. We didn't modify. We 
simply got a better record of that than we could get from the 
administrative records. We didn't modify the rule. I think I am 
correct on that.
    Mr. Ryan. You adopted home of record as the basis for usual 
residence.
    Mr. Prewitt. Yes.
    Mr. Ryan. I see that my time has run out.
    Mr. Miller. Mrs. Maloney.
    Mrs. Maloney. Thank you. Dr. Prewitt, I have a draft bill. 
I don't know if you have had a chance to look at it but 
basically it calls upon the Bureau to do a special survey of 
American citizens overseas and have this survey done by, say, 
2003, not connected with the 2000 decennial census. And I would 
like you to read it and get back to us. But could you give us 
some comments on whether you think this special survey could be 
used to help make decisions about the 2010 census? What are 
your thoughts basically, not only on the survey, but in 
general, on counting Americans overseas, and how we should do 
that?
    Mr. Prewitt. Mrs. Maloney, I do appreciate that legislative 
initiative. I have had a chance to quickly review it, and I 
appreciate the intelligence with which it is constructed. What 
it first asked us to do is to consult with the witness panel 
and the representatives here about the complexities of this, 
beyond what we have done.
    And second, present to the Congress a feasibility, if you 
will, a statement report within a year of initiation of this 
consultation process. And on the basis of that feasibility 
statement, then say how we would actually go out and conduct 
the count itself so Congress would have an opportunity to 
itself decide whether it was as feasible and cost effective as 
it could be. The Census Bureau would be delighted to cooperate 
with the Congress in that initiative.
    I think as Congressman Miller said at the outset, and as I 
am sure we will hear from our distinguished panel in a moment, 
it is a new world. The next century is going to have many, many 
more Americans living abroad in many, many complicated ways. 
And what that means for our traditional concept of what the 
census is supposed to do has to be addressed as a major policy 
question. And we are very responsive to working with the 
Congress to address that policy question.
    I do not think that policy question has been adequately 
addressed. I think that you, the U.S. Congress, would have to 
decide whether it made sense to count for apportionment 
purposes people who never intended to come back to the United 
States. It is a policy question and many others are similar.
    Mrs. Maloney. One of the recommendations by the groups 
representing Americans overseas is to create a self-reporting 
form which American citizens could pick up at embassies. If 
there is self-reporting, I have a concern that some States may 
start a lobbying effort in an attempt to get the overseas 
population to self-identify with their particular States, and 
can you comment on that concern?
    Mr. Prewitt. Well, I can say the following: With or without 
a lobbying effort, there is every reason to presume that the 
responses from a voluntary self-enumeration census, where we 
would have no opportunity to go back and try to find the people 
who do not volunteer, that that response pattern would be some 
sort of biased pattern with respect to the true distribution by 
State of record of the overseas Americans.
    There is simply no reason to presume that the volunteer 
part of the population will resemble, in terms of State of 
record, exactly what the total population looks like. So, by 
definition, we would be introducing distortions into the 
apportionment count.
    If somebody can convince me to the contrary that we will 
count that volunteer part of the population exactly 
proportionate to what the total population's characteristics 
are, with respect to State of record, we could be convinced. 
But since people don't even know what the universe size is, it 
is very hard for me to imagine they could make a compelling 
case.
    Mrs. Maloney. Very last, because I know our time is running 
out. I know we have a number of important resolutions and bills 
before us today, but I would like to ask you, how are the 
preparations coming for the decennial census?
    Mr. Prewitt. Well, I'd love that opportunity. If I could 
just slightly edit your question, it is not only preparations, 
it is real implementation of procedures. I am delighted to 
report to the oversight committee that we have completed our 
block canvassing on schedule and we are now back out in the 
community making some corrections to our address file and that 
procedure is going very, very well.
    We have opened up all but three of our local offices or 
signed leases for all but three. That is 517 out of 520. We are 
very pleased with that. As I mentioned when you were out of the 
room, Mrs. Maloney, there are today 80 semitrailer trucks on 
the roads on their way to Jeffersonville with a very large 
percentage, but not all, of our short form questionnaires. Many 
of our printing contracts have been released. We have over 
6,000 complete count committees now up and running. We have 
over 400 partnership experts recruited. We have signed 
agreements with 450 tribal governments, and so our creative 
work with our advertising campaign is on schedule.
    We have tested over 1,000, we are already casting and 
wardrobing for 100, creative presentations for medium print and 
so forth. Right now, I must say, despite all the complexities 
and difficulties getting to this point, for early June, we 
think our operations and procedures are on schedule to have a 
successful census in 2001. We are very reluctant to create any 
kind of major disturbances to that procedure at this stage, for 
the reasons that we have talked about so often in this 
committee.
    Mr. Miller. We have a vote, but we have a few minutes, so 
if anybody wants to go back for a single question or such. I 
know I have a question or statement. And we will break for our 
vote, and we will come back for the next panel.
    I think we have to come up with a way to count overseas 
U.S. citizens. A lot of the decisions that have been made for 
the 2000 census were made obviously before your tenure at the 
Census Bureau; and maybe, with the recommendation of Mrs. 
Maloney, we'll lay the groundwork for what we want to do for 
2010.
    We just need to start off with the assumption we are going 
to count U.S. citizens overseas. We may have to have different 
standards that we apply to counting overseas. It is going to be 
hard to get that finite population. You are the experts on how 
we do that. Maybe we have to lower our standards.
    I see your concern about a voluntary type response. But 
these are U.S. citizens. They vote and they pay taxes, a lot of 
them. So, they have every right to be counted. It doesn't 
affect redistricting, as we know. It would only affect the 
issue of apportionment.
    Since we count military and other Federal employees because 
of administrative records, we need to find a way we can do it 
certainly for 2010; and we need to have a plan of some sort. We 
need to get through next April 1, I recognize, and determine 
whether there is anything we can do between now and April 1 to 
help. Explain to me, again, a voluntary response. I know you 
have to verify but if you have passports, you know, they scan 
your passports and all that. It seems like a computer system 
with the State Department would be capable.
    Why is getting 30 percent of the people counted through 
embassies worse than zero percent?
    Mr. Prewitt. Mr. Miller, if the 30 percent are distributed 
somehow across the 50 States, which they would be, of course, 
since we are recording them back. The whole motivation of this, 
as I understand it, is to use this count to get back to the 
apportionment numbers. If the 30 percent are distributed across 
the States proportionate to whatever, the number of overseas 
residents that happen to come from California, Florida, New 
York, or what have you, if the remaining 70 percent had a 
different proportion across those 50 States, then you are 
simply introducing bias; and there is no way to measure the 
magnitude of that bias.
    So, we would have to presume that volunteers come from 
State of record in exactly the same ratios as non-volunteers 
come from the State of record. Otherwise, we introduce a 
distortion. But I am really sympathetic with the thrust of your 
question. I am more than happy to have conversations with this 
Congress about whether we should create a different position 
with respect to the overseas Americans and have that policy 
discussion.
    It would be very difficult to introduce a whole new policy 
into the 2000 census. Perhaps, Congressman Miller, we would be 
sitting here in a year or two, talking about using sampling for 
non-response followup with the overseas Americans. That may be 
the procedure we would have to come back in and recommend.
    Mr. Miller. Thank you for bringing that issue up. We will 
have to get the Supreme Court to rule on that one.
    Mrs. Maloney, do you have a quick question?
    Mrs. Maloney. What about exiled Americans? A lot of 
Americans are patriotic citizens who are overseas for their 
jobs or education or whatever. But there are some people who 
prefer to be exiles, who don't participate; how would we treat 
them? Would we treat them differently?
    Mr. Prewitt. We would have to, and we also have the issue 
of dependents who are not American citizens but are married to 
or children of American citizens. Do we count them as part of 
this count? We have dependents who might want to become 
American citizens but are not yet American citizens.
    So, there are all of those issues. The problem with the 
U.S. Constitution, it says count residents. As soon as we leave 
the borders, we get into a situation where we are now only 
trying to count citizens. So we changed the rules, as I 
understand it, but it gets very murky. Exactly, what is a 
citizen? Somebody who has let their passport lapse? Americans 
overseas have let their passports lapse. Do we try to find them 
or not find them?
    So, the conception of this population is work that has to 
be done. This is the kind of work we will be allotted to do if 
your legislation is passed.
    Mrs. Maloney. But, you would support the legislation?
    Mr. Prewitt. Yes, ma'am.
    Mrs. Maloney. Thank you.
    Mr. Miller. Does anyone have a quick question?
    Mr. Davis. I just have one question. I just want to make 
sure, if I could, Dr. Prewitt, that I am interpreting your 
testimony correctly. And that is, it seems to me that you are 
saying that these are serious issues. They are issues that need 
to be looked at, but that we are too far along in the process 
to really talk about changing anything without causing a 
tremendous amount of disruption.
    Mr. Prewitt. Yes, sir, that is correct.
    In neither of these instances does the Bureau itself have a 
principled opposition, but it is a concern that it is not a 
good moment to try to change major procedures. It might come up 
with a principled opposition after further reflection and 
discussion with Congress; but as of now, we would want the time 
to think through all the implications.
    For example, Mr. Ryan's legislation we have only had for a 
couple of days. We have to think through the implications of 
that. So I don't want to foreclose the possibility of a 
principle--a concern, but as of now, that is not the 
motivation. The motivation is what can be done realistically 
and intelligently in the timeframe that is available.
    Mr. Davis. Thank you.
    Mr. Miller. Thank you very much, Dr. Prewitt. Some of us 
may want to submit some written questions, and we would 
appreciate your response on that. I think we need to start off 
with a strong commitment, and in 2010 we will figure out a way 
to accomplish the job. I am disappointed the Bureau, back in 
the early 1990's, didn't really come up with a more concrete 
solution to the problem, and I recognize the problem of timing 
right now. I look forward to our next panel, talking about it 
very specifically.
    Thank you very much for being with us today.
    [Recess.]
    Mr. Miller. If we could have the next panel come forward, 
please, and remain standing.
    [Witnesses sworn.]
    Mr. Miller. Let the record show all answered in the 
affirmative.
    Welcome. Thank you for sitting through the first part of 
the hearing. I hope you found it of interest to hear the 
comments from Director Prewitt. I am interested to hear him 
come after you, too, but it is the procedure we are following.
    Let me welcome all of you here. We will proceed, and the 
other Members will be returning. There will be no more votes 
for the next little while, so we won't be interrupted again, 
and I apologize for the delay.
    We will try to hold to the 5-minute rule. Let me at this 
stage proceed with Mr. David Hamod.

  STATEMENTS OF DAVID HAMOD, EXECUTIVE DIRECTOR, CENSUS 2000 
    COALITION; DON JOHNSON, VICE PRESIDENT, ASSOCIATION OF 
   AMERICANS RESIDENT OVERSEAS; L. LEIGH GRIBBLE, SECRETARY, 
  AMERICAN BUSINESS COUNCIL OF GULF COUNTRIES, AND EXECUTIVE 
COMMITTEE MEMBER, REPUBLICANS ABROAD; DOROTHY VAN SCHOONEVELD, 
   EXECUTIVE DIRECTOR, AMERICAN CITIZENS ABROAD; AND JOSEPH 
              SMALLHOOVER, CHAIR, DEMOCRATS ABROAD

    Mr. Hamod. Thank you, Mr. Chairman. Thanks to Mrs. Maloney, 
in absentia, for the opportunity to testify today and for 
holding this useful hearing.
    My name is David Hamod. I am the executive director of the 
Census 2000 Coalition, an ad hoc bipartisan group dedicated to 
including all Americans overseas in census 2000. Our C2K 
coalition is composed of all the major organizations 
representing U.S. citizens and U.S. companies overseas.
    Mr. Chairman, before I go to my prepared remarks, let me 
just share with you some personal perspectives. I do these now 
as an individual, not on behalf of the coalition.
    It saddens me deeply to have the Census Bureau turn its 
back on millions of Americans overseas who, in our opinion, 
deserve to be counted. I hear the Census Bureau saying they 
don't fit our statistical models so they should be ignored. I 
hear the Census Bureau saying this is the way we have always 
done it. We are not going to change.
    I want to reaffirm that this is not a nameless and faceless 
case study. We are talking about people's lives here, and I 
guess I am a little bit ashamed that the Census Bureau has so 
cavalierly dismissed millions of Americans overseas, 
particularly when they work so hard to track down every 
American here in the States.
    It suggests to me that the Bureau is completely out of 
touch with this very important segment of the U.S. population, 
and I guess I have to say, it seems to me also that the Census 
Bureau may be neglecting the very people that they were created 
to serve, that is, the American people. Those are some personal 
comments and now I will go on with my prepared statement, Mr. 
Chairman.
    It may come as a shock to the subcommittee that no one 
knows how many Americans live and work overseas. The population 
of private Americans abroad may be as small as the greater 
metropolitan area of Sarasota, Bradenton, Tampa, St. 
Petersburg, and Clearwater, about 3 million; or it may be as 
large as, say, New York City.
    The truth is, without the census, we just don't know. But 
one thing is very clear. If the Census Bureau excluded the 
residents of western Florida and those of New York City from 
census 2000, I am confident that there would be a hue and cry 
from your constituents. They would be outraged that the Census 
Bureau was treating them as invisible U.S. citizens, ignoring 
some 3 to 9 million hardworking taxpaying Americans. Does this 
sound familiar?
    Americans living and working overseas are an increasingly 
important segment of the U.S. population. This is a reflection 
of America's growing globalization and the essential role that 
U.S. exports of goods, services, and expertise now play in 
strengthening our economy. As highly visible Ambassadors of the 
United States, economically, politically, and culturally, U.S. 
citizens overseas play a key role in advancing America's 
interest around the world and have a far greater impact on the 
United States than at any other time in U.S. history.
    With this in mind, it is all the more perplexing to us that 
the Census Bureau is proposing to exclude private Americans 
overseas from census 2000. We think they should be included for 
at least four reasons.
    First, competitiveness. In order for America's public and 
private sector leaders to give appropriate support to U.S. 
citizens and U.S. companies overseas, it is important to get a 
better handle on how many Americans live abroad and where they 
live.
    Second, representation. There is no reasonable basis for 
excluding millions of Americans from census 2000 just because 
they are living overseas. Like Americans who reside within the 
50 United States and the District of Columbia, U.S. citizens 
abroad vote in the United States, pay U.S. taxes, and generally 
stay in touch with their home communities in the United States.
    Third, fairness. The U.S. Government employees and 
officially affiliated workers overseas are included in the 
census. It is wrong for the U.S. Government to take care of its 
own and to discriminate against those Americans who do not work 
for the government. We believe that all Americans deserve the 
right to be counted, and I should point out that the Federal 
people overseas are no more resident in the United States than 
the private people overseas.
    And fourth, accuracy. The Census Bureau says it wants 
Census Bureau 2000 to be the most accurate census ever but the 
Bureau cannot willingly and knowingly exclude millions of 
Americans living overseas and still claim with any credibility 
that its work is accurate.
    And I was a bit surprised, I have to admit, that the 
Director of the Census Bureau this morning said that a 100 
percent undercount, which is what we have right now, is better 
than, say, a 50 percent undercount. Right now, we are not 
counting any of these private-sector Americans overseas, and I 
would suggest the real distortion lies in not counting these 
Americans abroad.
    The Census Bureau has expressed concern that it does not 
have the resources to include all Americans abroad in census 
2000. With this in mind, members of the Census 2000 Coalition 
have volunteered to do the lion's share of the work in getting 
the word out to private U.S. citizens residing overseas. This 
is entirely consistent with the Bureau's Census 2000 
Partnership Program, and we are hopeful that the Census Bureau 
will take advantage of our offer to assist.
    Again, it was with some disbelief this morning, that I 
heard the Director say that the master activity schedule cannot 
be changed in any way and that any modifications from here on 
out could endanger the very census itself. We find that that 
strains credibility, and it is our impression that the master 
activity schedule is quietly and continuously tweaked.
    We also see our request not as interfering with the 
existing census; rather it is an add-on, and our perspective is 
this should not interfere one iota with the existing census 
2000 effort here in the United States.
    The C2K coalition is proposing an efficient and relatively 
inexpensive method of counting private Americans abroad. Our 
proposal is modeled after the Federal Postcard Application 
process through which Americans overseas have voted 
successfully by absentee ballot for more than 2 decades. We see 
this as a simple five-step process.
    Step one, preparation of the overseas citizen census card. 
The Census Bureau would review the card, modify it, and print 
the card. Let me say, for the record, we are deeply apologetic 
to the committee and to the Bureau. We didn't mean to suggest 
in any way that this was an official document and we will take 
steps immediately to reinforce the fact that this is only a 
draft.
    Step two, dissemination of the OCCCs. The OCCC would be 
distributed to Americans abroad through three basic channels: 
on the Web, directly to overseas American organizations and 
indirectly through U.S. embassies and consulates. With this in 
mind, we applaud the Census Bureau's recent decision to post 
forms on its Website, where they can be downloaded easily from 
anywhere in the world. For anybody who would suggest that the 
Census Bureau can't change its ways, this is proof positive 
that it can.
    Step three, submission of the OCCCs. It is envisioned that 
the OCCCs would be returned to the Census Bureau one of two 
ways, either directly through the mail or indirectly through 
the embassies and consulates.
    Step four, tallying the OCCCs. Once delivered to the Census 
Bureau, it is expected that the Bureau would enter the OCCC 
data in the most efficient manner possible.
    And step five, clarification and verification. The OCCC 
requires Americans abroad to provide their passport numbers, 
which could be checked against State Department records, if 
need be.
    And I want to emphasize here, that there is a sense, it 
seems to me, within the Census Bureau that Americans abroad are 
guilty until proven innocent. We would suggest otherwise. They 
are innocent until proven guilty, and Americans overseas, in 
our experience, have been some of the most patriotic, law-
abiding Americans you have ever met.
    If the Census Bureau has additional questions concerning 
the OCCC, the C2K coalition suggests following up with staff at 
the embassies and consulates or contacting overseas Americans 
directly by e-mail, fax, or telephone. The Census Bureau has 
expressed some concerns about its ability to enumerate private 
Americans living and working overseas.
    The C2K coalition recognizes that counting overseas 
Americans may be a challenge for the Census Bureau, but in our 
assessment, none of the obstacles that the Bureau has raised 
are insurmountable. And after hearing and reading Dr. Prewitt's 
testimony this morning, I feel and I think my colleagues feel 
more strongly about this than ever. We regret that it has taken 
years, I repeat, years, for the Census Bureau to study 
seriously the low-cost, commonsense proposals that have been 
put forward by Americans abroad. As a result of this delay, 
which regrettably had been on the Census Bureau's side, 
valuable time and valuable opportunities have been squandered.
    The Census Bureau's concerns, as they've been expressed to 
us, can be divided into six major categories.
    Cost. The Census Bureau says that an overseas count will 
cost too much. The C2K coalition has seen no Bureau estimates 
of what the cost would be. We are confident that the bill for 
counting Americans abroad will amount to a fraction of what it 
costs per capita to count domestic Americans. The U.S. 
Department of Defense, never known for its frugality, 
administers the highly successful Federal Voting Assistance 
Program for under $3 million per year. Can the Census Bureau 
get by with less than the Department of Defense? We hope so.
    Second, the extent of participation. The Bureau mounts 
strong efforts to count as many U.S. and non-U.S. citizens as 
it can, and they should apply this same level of commitment to 
the count of overseas private citizens. The expected 
participation of private Americans overseas in census 2000 
should be at least as great as their absentee voting in 
Federal, State, and local elections.
    Third, data quality. For nearly a quarter century, 
Americans abroad have used the Federal Postcard Application to 
vote by absentee ballot. This form has been accepted by U.S. 
voting officers in all 50 States and the District of Columbia. 
According to the Defense Department, there has never been a 
pattern of abuse or fraud by Americans abroad during this 
period. The OCCC goes one step further than the FPCA, requiring 
that Americans abroad list their U.S. passport numbers.
    Next, allocation of overseas population by State. Census 
2000 should include all Americans residing overseas in the 
State-by-State population figures used to apportion seats in 
the House of Representatives.
    As we said earlier, the distortion is what's taking place 
now, not what we are proposing to do. Respondents would list 
their last U.S. State residence on the OCCC, just as they 
currently do in submitting their FPCAs. Let's not forget that 
the Bureau has already departed from the usual domestic 
residence standard in counting federally affiliated Americans 
abroad for purposes of apportionment.
    Operational issues. Including Americans abroad in census 
2000 should be relatively straightforward in our assessment. 
The distribution of the OCCC to overseas private citizens 
should follow essentially the same channels as the FPCA 
involving U.S. embassies and consulates, as well as American 
groups worldwide.
    And finally, timing. If there is one thing we agree with 
the Census Bureau on, it is that time is of the essence, but 
the good news is that no rocket science is involved in this 
effort and there is no need to recreate the wheel. Using our 
system and with the wealth of talent that the Census Bureau has 
at its disposal, we are confident that everything can be up and 
running by next April.
    In conclusion, Mr. Chairman and Mrs. Maloney, it is high 
time to overhaul an obsolete policy that treats U.S. citizens 
overseas as nobodies rather than the valuable national asset 
that they are. Including Americans abroad in the census is long 
overdue, and this would represent an important step forward for 
U.S. citizens and U.S. interests worldwide in the global 
economy of the 21st century.
    Thank you, Mr. Chairman, Mrs. Maloney.
    Mr. Miller. Thank you, Mr. Hamod. I want to thank all of 
you all for submitting your written testimony in advance 
because I did have the pleasure of reading it yesterday and 
preparing some of the thoughts for today's hearing. So thank 
you very much for that.
    [The prepared statement of Mr. Hamod follows:]
    [GRAPHIC] [TIFF OMITTED]60341.023
    
    [GRAPHIC] [TIFF OMITTED]60341.024
    
    [GRAPHIC] [TIFF OMITTED]60341.025
    
    [GRAPHIC] [TIFF OMITTED]60341.026
    
    [GRAPHIC] [TIFF OMITTED]60341.027
    
    [GRAPHIC] [TIFF OMITTED]60341.028
    
    [GRAPHIC] [TIFF OMITTED]60341.029
    
    Mr. Miller. We will now proceed with Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Miller, Mrs. Maloney. I am 
honored to be here today regarding the inclusion of private 
overseas Americans in the census 2000.
    My name is Don Johnson. I am vice president and chairman of 
the census committee of the Association of Americans Resident 
Overseas [AARO], a nonprofit organization founded in 1973 to 
represent U.S. citizens living abroad. I have come here from 
Paris, France, so that I can give you firsthand the case for 
ensuring overseas private citizens the opportunity to be 
counted in census 2000.
    My organization, AARO, played a key role in helping 
persuade Congress to enact the Overseas Citizens Voting Rights 
Act of 1975. And as a result of this law, overseas private 
Americans are registering and voting absentee in Federal 
elections in record numbers.
    Now we think the time has come to include us in the 
decennial census. Congress decided, a quarter century ago, that 
we count enough to vote for the President, Senators, and 
Representatives. Why would Congress now allow the Census Bureau 
to exclude us from being counted in the census?
    Having worked for at least 8 years in international 
assignments, I know personally what it is like for Americans to 
live overseas. I am a retired American businessman and 
electronics engineer who has spent most of his career working 
for Texas Instruments. For the last 2\1/2\ years, I have been 
working on special projects at AARO with emphasis on the census 
that started with a first letter with Martha Feinsworth 
reaching back to April 1977.
    We at AARO know that the Census Bureau can mount a 
successful effort to count overseas private Americans. Even 
though the Census Bureau's effort to include private Americans 
in the 1970 census did produce meager results, the Bureau at 
least overcame the hurdle in that census of developing enough 
confidence to verify the data.
    In response to congressional pressure, the Census Bureau 
found a way to include military and other government employees 
and their dependents in the 1990 census from administrative 
records. In 1992, the U.S. Supreme Court upheld the validity of 
their doing so.
    We agree that the inclusion of overseas private citizens 
would be a bigger challenge than the count of federally 
affiliated Americans abroad. We are confident, however, that 
the Census Bureau can do this job if Congress tells the Bureau 
to do it and provides the Bureau with the necessary funds. I 
can assure you that AARO and other citizens overseas 
organizations will make every effort to help the Census Bureau 
get the job done just as we have worked side by side with the 
Department of Defense in building up the rolls of overseas 
voters under the Federal Voting Assistance Program.
    We believe that the OCCC card, like the one you see here 
today, would serve as an effective vehicle for counting 
overseas private Americans in census 2000. The use of OCCC 
would be consistent with the Census Bureau's use of its own 
``be counted'' card to identify U.S. residents who would not 
otherwise be enumerated.
    The Census Bureau has long recognized that its domestic 
count underestimates certain categories of U.S. and non-U.S. 
citizens in the United States who are difficult to track down 
such as inner-city poor, inhabitants of rural areas and the 
homeless. The Census Bureau mounts strong efforts to count as 
many of these residents as it can, and the Bureau should apply 
the same level of commitment to the counting of overseas 
private citizens.
    The expected participation by private Americans overseas in 
census 2000 should be at least as great as their absentee 
registration and voting in Federal elections. Based on U.S. 
Defense Department and State Department data, at least 750,000 
private U.S. citizens overseas sought to register and vote 
absentee in Federal elections in 1996, a significant increase 
since the enactment of the Overseas Citizen Voting Rights Act 
of 1975. The Census Bureau's reluctance to consider acceptance 
of the OCCC seems to represent a presumption that overseas 
private Americans will file false statements.
    We think this attitude of presumptive distrust of the 
overseas private American community is simply uncalled for. Why 
should overseas private Americans be presumed to file false 
OCCCs when the Federal Voting Assistance Program has assured us 
that there has never been a pattern of abuse or fraud in 
absentee voting by Americans abroad?
    The census has already established partnerships with over 
100 organizations to assist in helping make sure census 2000 is 
the best ever. These organizations include nearly a dozen 
groups representing American residents from almost every region 
of the world. If the Census Bureau can make such a strong 
effort to count Americans who have come to the United States 
from these overseas jurisdictions, how can the Census Bureau 
now turn its back on counting American citizens who have moved 
to Africa, the Middle East, Asia, Latin America, and Europe 
from the United States? The C2K coalition has prepared a 
preliminary to-do list which I have attached here to my 
statement.
    I think, at this point, I will thank you again for the 
ability to give you some testimony today, and I look forward to 
meeting with you again.
    Thank you.
    Mr. Miller. Thank you, Mr. Johnson. Thank you for staying 
close to the 5-minutes. I appreciate that.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED]60341.030
    
    [GRAPHIC] [TIFF OMITTED]60341.031
    
    [GRAPHIC] [TIFF OMITTED]60341.032
    
    [GRAPHIC] [TIFF OMITTED]60341.033
    
    [GRAPHIC] [TIFF OMITTED]60341.034
    
    [GRAPHIC] [TIFF OMITTED]60341.035
    
    [GRAPHIC] [TIFF OMITTED]60341.036
    
    Mr. Miller. Mr. Gribble.
    Mr. Gribble. Good morning, Mr. Chairman, Mrs. Maloney. 
Thank you for hearing us today. We greatly appreciate the 
opportunity to put forth our testimony.
    My name is Leigh Gribble. I am secretary of the American 
Business Council of the Gulf Countries and a member of the 
executive committee of Republicans Abroad. I am testifying 
today on behalf of the American Chambers of Commerce Abroad and 
the international arm of the Republican party.
    I am a retired naval officer and the owner of a consulting 
firm that is incorporated and registered in the State of 
Florida. My family and I have lived in Kuwait in connection 
with my military service and now my private business for the 
past 7 years. However, we pay taxes and vote in Florida's 
Fourth Congressional District, which is where we hope to return 
to live full-time within the next few years.
    I am honored today to give voice to the concerns of tens of 
thousands of American business people and Republicans around 
the world. We want to be counted in the census 2000. We want to 
be included alongside our fellow American citizens in this 
critical national event. We are worried, no I dare say we are 
certain, that unless you and your colleagues take action 
promptly, the Census Bureau will exclude us from the census 
2000. In doing so, they will demean our citizenship and our 
contribution to America. We continue to contribute to the 
Federal coffers, even as we live and work overseas, through 
payment of personal and corporate income taxes. We ask as 
citizens and taxpayers you do not allow us to be excluded from 
the rolls of the census.
    As a naval officer who served in the Gulf war, let me tell 
you something that really appalls me. I would be counted by a 
Census Bureau in census 2000 if I had remained on active duty 
in the Navy, but the Census Bureau counted me out of the census 
the day I retired. How can you permit the Census Bureau to 
strip away this important aspect of American citizenship simply 
because I hung up my uniform to defend my country's democratic 
principals as a private citizen?
    Some at the Census Bureau say Americans overseas do not 
want to be counted. This is simply not true. American citizens 
in the more than 160 country and regional chapters of the 
American Chambers of Commerce and Republicans Abroad have 
stated clearly, in words and deeds, that they want to be 
counted. Their support for my appearance here today attests to 
that tremendous desire to be counted.
    Further, these Americans have offered to join in 
partnership with the Census Bureau to facilitate the 
enumeration of those citizens, who were overseas at the time of 
the census. We will assist in locating members of the American 
community of our respective countries. We will assist in 
disseminating census information and forms. We will assist in 
gathering completed census forms and forwarding them to the 
United States. We want to be counted and we are willing to 
assist the Census Bureau in any way we can to accomplish this.
    Overseas, an American Chamber of Commerce is the private 
hub of the American community. We have very strong ties with 
our host countries to all the various American social and civic 
organizations, schools and, of course, U.S. companies.
    We can and will use those ties to get census information 
out and to help gather completed forms back from great numbers 
of American citizens. By the way, we found out this morning the 
board of directors of the U.S. Chamber of Commerce, which is 
the parent organization of most of our American Chambers 
overseas, adopted a resolution supporting the inclusion of 
American overseas in census 2000. They did that at 11:30 this 
morning.
    Republicans Abroad has been a source of voter registration 
and absentee balloting information and assistance to overseas 
Americans for over 20 years. We can and will bring the 
organizational expertise that we have developed in decades of 
getting the absentee ballot out overseas to bear in assisting 
the Census Bureau with the counting of U.S. citizens abroad. 
The overseas citizens census card and the Census 2000 Coalition 
has drawn heavily upon the experience of using the Federal 
Postcard Application for voter registration and ballot 
requests.
    Republicans Abroad stand ready, as I am sure our 
counterparts and Democrats abroad do as well, to partner with 
the Census Bureau to do whatever it takes to count American 
citizens overseas.
    In summary, American business people and other private 
Americans overseas contribute mightily to the fabric of 
American society even though we may be far from U.S. shores. We 
generate U.S. exports in American jobs. We pay U.S. taxes. We 
are Ambassadors of American values and democracy, and we 
actively participate in the U.S. electoral process.
    We private American citizens--residents abroad--should not 
be penalized for our overseas contribution to the United 
States. Our citizenship should be valued and we should be 
counted in the census just as overseas government employees and 
their families are. We will do our part to ensure that 
Americans overseas are counted in the census 2000. We 
respectfully ask that you do the same.
    I just have one last little bit to throw in here before I 
conclude.
    The census 2010 is too late for me. My family and I will be 
back in Ormond Beach, FL within the next 2 or 3 years. I hope 
when we get back that the infrastructure that will be generated 
by the Federal revenues that I am contributing to now, and have 
been for the past 5 years in Kuwait, will be there to meet me. 
I fear that if we wait until the year 2000, the sewers, the 
highways and the schools won't be as good as they could be.
    Thank you.
    Mr. Miller. Thank you.
    [The prepared statement of Mr. Gribble follows:]
    [GRAPHIC] [TIFF OMITTED]60341.037
    
    [GRAPHIC] [TIFF OMITTED]60341.038
    
    Mr. Miller. Ms. van Schooneveld.
    Ms. van Schooneveld. Mr. Chairman, honorable members of the 
subcommittee, I am pleased and privileged to address you today 
on an issue of great concern to Americans abroad.
    Before I start with my prepared statements, I would like to 
say that my organization, American Citizens Abroad, first 
started trying to converse with the Census Bureau on this 
subject in 1993. We launched a major campaign in 1996. I, too, 
am sad that it is summer of 1999 before we are before you, but 
we nevertheless feel extremely strongly that we want overseas 
Americans to be included at the beginning of the new 
millennium, even if it is only a percentage of them.
    My name is Dorothy van Schooneveld, and I am executive 
director of American Citizens Abroad, ACA, a non-profit 
organization founded in 1978 to represent the concerns of the 
uncounted millions of private American citizens residing 
outside the United States. I have flown here from Geneva, 
Switzerland, so that I can thank you for lending your eyes and 
ears to this presently invisible segment of the American 
population.
    I would ask you to keep in mind that Congress granted 
overseas private citizens the right to register and vote 
absentee in Federal elections almost a quarter century ago with 
the passage of the Overseas Citizens Voting Rights Act of 1957. 
They vote in your States, in your districts. Some of them 
helped elect you. If you care about representing all your 
constituents, and I know from experience that Members of 
Congress care deeply about their constituents, let them all be 
included in census 2000 so that you and others know they exist.
    Ironically, ever since overseas private Americans gained 
the right to register and vote absentee in Federal elections, 
these overseas citizens have never been included in a U.S. 
census count. We Americans abroad are thus in the paradoxical 
position of being told by our government, your vote counts, but 
you don't. Who are we, these uncounted Americans?
    I am an American lawyer, member of the Indiana and Illinois 
bars, presently employed by the World Health Organization. I 
have lived abroad for a dozen years now.
    For the last 7 years, I have been volunteering my services 
to American Citizens Abroad. I have personally corresponded 
with literally thousands of Americans from Nepal to New Guinea 
to Brazil to Iceland and countless places in between.
    Americans residing abroad share many of the characteristics 
of their fellow citizens at home. They are your parents, 
relatives, neighbors, and friends who, for shorter or longer 
periods, are representing our Nation abroad and its industries, 
schools, churches, labor unions, charitable organizations, 
banks, and factories. They represent, just as do their families 
and friends at home, a talented and varied mix of our national 
heritage.
    American students working their way through school, mothers 
working part-time; American men and women of commerce and 
finance traveling internationally, to trade, build, and invest 
for the benefit of American industries, towns, cities, and 
States. Retired military personnel and their families, senior 
citizens living in sunny areas, American actors, painters, and 
musicians spreading our culture to every corner of the globe 
and scientists and teachers working to improve the quality of 
life for all of us.
    These overseas Americans are loyal, patriotic U.S. citizens 
who can vote in your districts and are subject to Federal 
taxation. They constitute an asset to their country by 
spreading American Democratic ideals and cultural values in 
their foreign communities, exemplifying the American way of 
life and, incidentally, buying and selling a substantial amount 
of American products.
    They are in a very real sense our best Ambassadors abroad. 
And yet, present policy permits the Census Bureau, which makes 
every effort to count every American resident as well as 
overseas government personnel and their families, to ignore all 
of your overseas private constituents. Their number is unknown. 
The State Department estimates that there are 3.2 million of 
them. Other organizations believe that there may be 5 to 6 
million. The truth is that nobody knows.
    We are confident that a mechanism built on the model of the 
Federal Postcard Application, FPCA, would be effective in 
achieving success and would guard against fraud. For nearly a 
quarter century, Americans abroad have used the FPCA to vote by 
absentee ballot. This form has been accepted by U.S. voting 
officers in all 50 States and the District of Columbia.
    The Federal Voting Assistance Program has assured us that 
there has never been a pattern of abuse or fraud by Americans 
abroad during this period. Indeed, the overseas citizen census 
card [OCCC] for census 2000 would go one step further, 
specifying that Americans abroad must list their U.S. passport 
numbers, which are not required for the FPCA. This will serve 
as a built-in mechanism to monitor the U.S. citizenship of 
those persons submitting OCCCs. Of course, information 
submitted on the OCCC, like that submitted on the FPCA, will be 
subject to the Federal False Statements Act. This requirement 
should further inhibit the possibility of incorrect data.
    The members of the C2K coalition believe that census 2000 
should include overseas private Americans in the State-by-State 
population figures used to apportion seats in the U.S. House of 
Representatives. Respondents would list their last U.S. State 
residence on the OCCC just as they currently do in submitting 
their FPCAs.
    The Census Bureau already includes federally affiliated 
U.S. citizens overseas for apportionment purposes but does not 
include private Americans abroad. The U.S. Supreme Court, in 
1992, expressly upheld inclusion of federally affiliated 
overseas Americans for purposes of apportionment in the 1990 
census, noting that the term usual residence can mean more than 
mere physical presence and has been used broadly enough to 
include some element of allegiance or enduring tie to a place.
    For overseas private Americans, the congressionally 
mandated right to register and vote absentee is that enduring 
tie. The 1992 Supreme Court case Franklin v. Massachusetts is 
included in our joint appendix. I would like to address 
specifically how my organization, American Citizens Abroad, and 
other organizations of private Americans abroad, could play a 
partnership role in helping to attain a meaningful count of 
private overseas Americans in census 2000. ACA regularly 
corroborates with U.S. embassies and consulates and with the 
Defense Department's Federal Voting Assistance Program in 
circulating FPCAs and other U.S. Government information to 
citizens around the world. We are prepared to join with the 
Census Bureau in applying to census 2000 many of the same 
highly successful techniques that we have honed all over the 
world for several decades. This is our overseas expertise.
    ACA, itself, has a mailing list of close to 9,000 Americans 
and American schools, groups, organizations, members of the 
press, and consular posts worldwide. Many of these recipients, 
in turn, disseminate information in our hard copy publications 
to their memberships and readerships.
    In addition to its hard cover publications, ACA would 
devote space on its Website, www.aca.ch, to promote census 2000 
and would send bulletins to the broad cyberspace network, which 
receives ACA's biweekly on-line newsletter.
    And finally, ACA's entire worldwide system of country 
representatives, presently more than 60 contact persons in over 
40 countries on 6 continents, would be actively involved and 
encourage participation in census 2000 in their regions. Other 
American voluntary associations represented here today would 
surely be as active as ACA.
    In closing, I would like to say the following: I cannot 
underscore strongly enough the positive emotional message 
America would send its overseas citizens by including them in 
census 2000. We know you are there and we care.
    With your permission, Mr. Chairman, I would like to enter 
into the record a collection of short statements on census 2000 
that ACA has received in recent weeks from overseas private 
citizens around the world.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED]60341.039
    
    [GRAPHIC] [TIFF OMITTED]60341.040
    
    [GRAPHIC] [TIFF OMITTED]60341.041
    
    [GRAPHIC] [TIFF OMITTED]60341.042
    
    [GRAPHIC] [TIFF OMITTED]60341.043
    
    [GRAPHIC] [TIFF OMITTED]60341.044
    
    [GRAPHIC] [TIFF OMITTED]60341.045
    
    [GRAPHIC] [TIFF OMITTED]60341.046
    
    Ms. van Schooneveld. Thank you, Mr. Chairman, and the other 
distinguished members of the subcommittee for this opportunity 
to appear today.
    Mr. Miller. Thank you.
    [The prepared statement of Ms. van Schooneveld follows:]
    [GRAPHIC] [TIFF OMITTED]60341.047
    
    [GRAPHIC] [TIFF OMITTED]60341.048
    
    [GRAPHIC] [TIFF OMITTED]60341.049
    
    [GRAPHIC] [TIFF OMITTED]60341.050
    
    Mr. Miller. And we will now have Mr. Smallhoover. It is in 
nice bipartisan fashion that we are in agreement as far as a 
goal and objective. Mr. Smallhoover.
    Mr. Smallhoover. Mr. Chairman, Mrs. Maloney, I thank you 
very much for giving us the opportunity to testify today. My 
name is Joseph Smallhoover. I am an American lawyer practicing 
my profession in Paris, France. I am also the elected chair of 
Democrats Abroad, the official arm of the Democratic party 
overseas.
    This is one of the very rare times that all of the main 
organizations representing Americans abroad are able to address 
a congressional committee on any issue of major concern to us, 
and this is certainly the first time we have been asked to 
testify at all about such an important question as the census.
    The Democrats Abroad global convention held in Toronto, 
Canada, on April 28, 1996, unanimously adopted a resolution 
urging that ``all appropriate government action be undertaken 
to include American citizens residing abroad, either 
permanently or temporarily, in the census.'' Moreover, 
Democrats Abroad recently adopted a unanimous resolution, 
calling on Congress ``to provide an adequate budget to include 
all Americans in the 2000 census, including Americans abroad 
and to direct the Commerce Department to take all steps 
feasible to these ends.''
    Indeed, we Democrats residing abroad, like the thousands of 
members of the organizations represented today in the Census 
2000 Coalition, believe that it is important, for a host of 
reasons, that we be counted in the census 2000.
    Mr. Chairman, one could legitimately ask why Americans 
abroad want to be included in the census count. It is, first of 
all, a feeling of belonging to the American nation, of being 
part of the American people, of wanting not to be ignored by 
our own government.
    We are patriotic American citizens. We file our income tax 
returns and pay taxes in the United States. We vote in Federal 
elections. But when it comes to counting the entire American 
population, the Census Bureau does not think that we should be 
taken into account. I believe, Democrats Abroad believes, that 
every American, whether Democrat or Republican or independent 
politically, wholeheartedly agrees with the recent statement of 
Vice President Gore that, ``It is vitally important that we 
count every American for one simple reason: Every single 
American counts.''
    While the patriotic impact of including Americans abroad in 
census 2000 cannot be overestimated, there are also a number of 
practical considerations which compel us to ask for our 
inclusion in the census count. Americans abroad promote 
democratic ideals and policies, individual liberty, free 
enterprise, the American way of life, and last, but not least, 
American exports. We constitute a valuable national asset, one 
that many other nations understand and promote but one which 
the greatest democracy on Earth seems to denigrate.
    Of course, it is easy to understand how our contribution 
and our importance are underestimated since no one knows for 
sure exactly how many of us there are or where we reside. How 
can the U.S. Government effectively deal with issues, such as 
the impact we have on trade, if it does not know how many of us 
there are or what we do? How can the consulates and embassies 
deal effectively with the services they must provide to us if 
they do not know the number of Americans living in the country 
or how many the consulate or embassy serves? How can the 
Federal or State governments get a firm idea of the voter 
participation in elections if they do not know the full extent 
of the potential voter pool?
    How many American citizens actually live abroad? Since we 
don't get counted by the Census Bureau, your guess is as good 
as ours. Nevertheless, here are a few figures. In 1989, the 
State Department estimated the population of U.S. citizens 
abroad, excluding the military, to be 2.2 million but 
incredibly put the same figure at an estimated 6.3 million just 
3 years later in 1992.
    Even more surprising, in 1993 the State Department estimate 
of private American citizens residing abroad, that is, not 
including U.S. Government and military and civilian employees 
and their dependents, was reduced to 2.6 million. In 1997, the 
estimate was 3.2. Absent huge and otherwise undetected 
population shifts, there is something wrong with these numbers.
    Based on our cumulative experience and activity within our 
communities, we have reason to believe that the recent figures 
are serious underestimates. Estimates of American organizations 
abroad vary between 3 and 6 million. The truth, Mr. Chairman, 
is that nobody knows. Has the time not come for the greatest 
Nation on Earth, with millions of its citizens abroad, to 
undertake a reasonably accurate count of this population?
    The current exclusion of private American citizens residing 
abroad from the national census raises an interesting legal 
issue. Since the census is constitutionally mandated for the 
purpose of achieving an equitable representation in Congress of 
the populations of the several States, the question naturally 
arises whether it can ignore the existence of certain citizens 
entitled to vote for Congress and represented in the House of 
Representatives in the same manner as other citizens.
    Congress decided nearly 25 years ago that Americans abroad 
are entitled to vote in Federal elections in the States and in 
the congressional districts in which they last resided. We are 
thus treated for the purpose of congressional elections as if 
we are residents of those States and districts.
    It appears to us, therefore, we should be included in the 
census in order to achieve the equitable apportionment of 
representatives among the several States. Congress and the 
Census Bureau must have recognized the validity of this 
reasoning. As stated by the Census Bureau, ``For the 1990 
census, as a result of strong bipartisan support in the U.S. 
Congress, selected components of the overseas population were 
included in the State population counts for purposes of 
calculating congressional apportionment. The selected 
components of the overseas population referred to by the Census 
Bureau were members of the Armed Forces, Federal civilian 
employees and their dependents who, we are informed by the 
Census Bureau, will be counted again in census 2000.
    There is hardly a decision of the Bureau which rankles 
private American citizens abroad more than this one. It seems 
to demonstrate to us that for the Census Bureau, private 
American citizens are not as valuable as those employed by the 
Federal Government. By what right, law, or constitutional 
provision are federally employed Americans residing abroad so 
privileged to be taken into account and calculated in the 
congressional apportionment, while private American citizens 
with the same rights and obligations as citizens of the United 
States are ignored.
    Surely, there is something wrong here. The Census Bureau's 
reply has been that while it is easy to count federally 
affiliated citizens on the basis of the official administrative 
records, enumerating private U.S. citizens abroad amounts to a 
technical impossibility. It cites, as proof, the experience of 
the 1960 and 1970 censuses in which the Census Bureau attempted 
to count private American citizens.
    For several reasons, private U.S. citizens were vastly 
undercounted in those censuses. Many Americans abroad were not 
even aware that the census was under way. Others were unable to 
get to a U.S. embassy or consulate to attain necessary forms. 
These offices had no way of distributing the census forms, 
except where Americans came to them voluntarily to obtain them. 
Moreover, involvement at the embassies and consulates was 
voluntary, with no funding support from either the State 
Department or the Census Bureau and thus, more than likely, the 
undercounts differed substantially from one geographic area to 
the other.
    Inclusion of private Americans abroad in census 2000 would 
be an entirely different matter. Americans abroad have now been 
and will continue to be sensitized to the importance of this 
issue as evidenced by the stance taken by the main 
organizations represented in the Census 2000 Coalition, some of 
which did not even exist in 1970. In the year 2000 our 
organizations do the lion's share of the work by publicizing 
the census, distributing specially prepared overseas citizen 
census cards and helping to collect them and return them to the 
Census Bureau, directly or through U.S. embassies or 
consulates.
    In other words, the process would be essentially the same 
as that which has been used successfully for more than two 
decades for the distribution and collection of Federal Postcard 
Application forms, which allow Americans abroad to register to 
vote by absentee ballot.
    Mr. Chairman, the testimony of the other witnesses 
representing the Census 2000 Coalition should effectively rebut 
the various objections expressed by the Census Bureau. My 
testimony shows, I hope, the inclusion of overseas private 
citizens in census 2000 is indeed feasible on the basis of 
objective and verifiable information.
    Admittedly, counting private Americans abroad is more 
difficult than counting federally affiliated Americans; but as 
the coalition has shown, it can be done. Such a count would not 
be 100 percent complete, but the fact that the 1990 census 
missed 8.4 million persons and miscounted another 4.4 million 
did not invalidate the census or result in its being discarded.
    The overseas American community stands ready to ensure the 
maximum amount of participation in the census of overseas 
Americans. The American organizations abroad are committed to 
every possible effort to get all Americans abroad counted in 
the census 2000.
    If the census group would join in this commitment, it would 
be possible to obtain a reasonably comprehensive, objective and 
verifi

able account of these citizens. Mr. Chairman, the level of 
commitment on the part of the Census Bureau can be expected 
only if the committee and the whole House of Representatives 
direct the Bureau of the Census in no uncertain terms to 
include all Americans residing abroad in census 2000. On behalf 
of Democrats Abroad, I strongly urge you to take this step. 
Give us the chance, and we will see that the job gets done and 
that it gets done correctly.
    Thank you, Mr. Chairman, Mrs. Maloney.
    [The prepared statement of Mr. Smallhoover follows:]
    [GRAPHIC] [TIFF OMITTED]60341.051
    
    [GRAPHIC] [TIFF OMITTED]60341.052
    
    [GRAPHIC] [TIFF OMITTED]60341.053
    
    [GRAPHIC] [TIFF OMITTED]60341.054
    
    Mr. Miller. I thank all five of you for your verifying 
testimony today. We appreciate that many of you came long 
distances to be here today. We appreciate that very much.
    Let me say, first of all, that I regret also that the 
Bureau has not come up with a plan to count U.S. citizens 
living overseas. It is unfortunate at this late date we don't 
have a plan. It is unexcuseable to me. This goes back many 
years. It is not necessarily Dr. Prewitt, who just joined the 
Bureau September or October of last year.
    As we become more of a global economy, and all of you are 
involved in that in one way or another, it is going to become 
an even bigger issue as we go through. We need to address the 
issue.
    Mr. Smallhoover, you addressed the question. Maybe someone 
else can respond to that. I am impressed that you all are 
willing to come this far and go through this much effort on 
this issue. So many people are involved in the census. We heard 
Mr. Ryan concerned about Wisconsin. Mrs. Maloney's State of New 
York, may lose two seats in Congress. Mr. Davis is concerned 
about the city of Chicago and the amount of Federal dollars 
that may flow there. Everybody has a reason to have an 
interest. I haven't figured out the reason that motivates you, 
except just being good citizens and proud of your citizenship.
    Is there something more there?
    Mr. Smallhoover. May I answer that, Mr. Miller. It is right 
behind you. Right there. That flag.
    Mr. Miller. Anyone else?
    Mr. Gribble. In the business council, the chamber of 
commerce, to sit down and try and make a trade bottom-line 
relation between being in the census and not being in the 
census, you can't do it, but everybody has said they want to be 
counted. They want to be full-up regular Americans. Again, it 
is our citizenship. It is our patriotism. That is the bottom 
line.
    Mr. Johnson. Also, we feel if we vote that we should have 
some representation in the House of Representatives, and we are 
invisible to that count at the present time.
    Mr. Hamod. Mr. Chairman, I also might be able to provide 
some historical perspective. We see this as a continuum. For 
years Americans overseas have fought to enjoy the same rights 
as Americans here at home, and I will give you just a few 
instances if the subcommittee will permit.
    For example, for many years, for American children born 
overseas, in order to get the U.S. citizenship, the appropriate 
naturalization, their parents had to quit their jobs and move 
back to the United States in order to become Americans. Well, 
with the help of Congress, we changed that. Let me give you 
another example. For example, for many years the U.S. laws said 
that the only people who could work in American embassies 
overseas and consulates overseas were foreign service officers 
and spouses, that other Americans could not. Ironically, 
anybody else in the world could take those jobs but not 
Americans and thankfully Congress stepped in and the law has 
been changed. I will give you just one more example. I could 
give you many of them, but for example, when the DOD schools, 
the Department of Defense schools, were shutting down in 
Eastern Europe earlier in the 1990's, they had many books and 
the laws on the books said you either have to burn these books 
or send them back to the United States.
    And this was at a time when the State Department schools 
and the American and international schools overseas were 
desperate for books; and thankfully, once again, Congress 
stepped in and said this doesn't make any sense. It is time to 
change the law. And we see this as just one more step in an 
ongoing process to say this is a no-brainer.
    It doesn't make sense what we are doing now. Let's change 
the laws, and we welcome the opportunity to work with the 
subcommittee and the whole Congress to do that.
    Mr. Miller. Mr. Hamod, you are the Census 2000 Coalition. 
Explain to me what that organization is.
    Mr. Hamod. This is an ad hoc organization that has come 
together in recent months. It includes the two main political 
groups overseas, Republicans Abroad and Democrats Abroad. It 
includes all of the major American chamber of commerce 
organizations overseas.
    There are four of them. One in Asia Pacific, one in Latin 
America, one in Europe, and one in the Persian Gulf. It also 
includes the major American citizens groups overseas. Again, it 
is an ad hoc effort. Three months ago, we didn't exist. We have 
come together, all of us volunteering our time, because this is 
an issue that is important to us. And we are very grateful to 
the subcommittee for the opportunity to make our case today.
    Mr. Miller. I think a couple of concerns I have is the 
largest population of people overseas would probably be Canada 
and Mexico, I am assuming. Probably overwhelming, I am sure, 
the majority of the total. I am guessing. And that is going to 
be even more difficult because passports aren't necessarily 
required, I guess.
    I know you can visit those countries or the Bahamas without 
a passport. You need a birth certificate. You get into problems 
with large numbers along the Canadian border and Mexican 
border. It is not an easy job.
    I am going to have some more questions, but I think we will 
do a second round. Let me ask Mrs. Maloney to proceed.
    Mrs. Maloney. First of all, I would like to thank all of 
you for coming to our hearing. You probably came from a farther 
point than most people than we have, and I want to thank you 
for your tremendously well thought out presentations with ideas 
of how to tackle getting a count of Americans abroad.
    This is one issue that we agree on. Regrettably, the Census 
Committee has been among the most partisan in Congress; but 
this is one that Mr. Miller and I have had several 
conversations on and agreed that it should be done.
    And actually, there has been some criticism that the Census 
Bureau didn't come forward with this particular plan on how to 
take care of this, but on the other hand, you could say that 
this committee actually should have had hearings and taken 
steps for Americans abroad earlier than we have. As you know, 
we are coming right up to the census, to census day very 
quickly and time is planned, as Dr. Prewitt has said on 
numerous occasions before this committee.
    Every day and every second is planned, and I believe we all 
agree, including Dr. Prewitt, that we should support and work 
toward counting all Americans abroad. He has stated that he 
cannot get it done for the 2000 census. I have prepared 
legislation, and I hope all of you will look at it. I would 
like to hear your thoughts on it, on calling for a special 
survey of American citizens overseas by 2002, not connected 
with the decennial census, and that that special survey could 
be used to help make decisions about the 2010 census.
    In fact, as I mentioned in my opening statement, I would 
ask all of you to comment on it and look at it. I would like to 
just go down and hear your comments on it. I have a series of 
questions. In fact, if I don't get a chance to ask all of them, 
I would like to get them to you in writing.
    Should overseas Americans be included for all other 
purposes as well, not just for apportionment, but say, the 
redistricting or Federal funds distribution? What are your 
feelings on that? Do you think Americans abroad should be used 
in the Federal fund distribution formulas and for redistricting 
and apportionment?
    Mr. Gribble. I certainly wouldn't want to dictate to all 
the various legislatures around the country as to how they want 
to handle redistributing, but I certainly feel, as far as 
allocation of Federal funds, yes. If there is a bottom line, if 
there is a business related thing in this entire issue, again, 
my tax dollars have been going to the Federal Government and 
not counting in the State of Florida, in the county of Flagler, 
in the city of Ormond Beach, for 5 years now since I have been 
out of the military.
    That is not right. Why shouldn't I have the same rights to 
Federal infrastructure, federally supported infrastructure, as 
everybody else that is living there now.
    Mrs. Maloney. Do you think each overseas American should be 
designated to a specific address or just to a State or maybe a 
city and State? How do you think they should be counted?
    Mr. Hamod. Mrs. Maloney, I would like to, if I may, and Mr. 
Chairman, your eyes did not deceive you, there are six of us 
here. With the subcommittee's permission, we'd like to 
introduce another of our colleagues, Gene Marans, with the law 
firm of Cleary, Gottlieb, who is doing pro bono work. If the 
committee permits, we'd like to open up to questions for him as 
well, with your permission.
    Mr. Miller. Identify yourself, if you would.
    Mr. Marans. I'm Eugene Marans. I am in the Washington 
office law firm of Cleary, Gottlieb, Steen & Hamilton, and we 
were involved 25 years ago also in helping obtain the 
legislation that assures overseas Americans the right to 
register and vote absentee in Federal elections in their last 
State of residence in the United States.
    In response to Congresswoman Maloney's question, if one 
looks at the form that is displayed now, which says unofficial 
draft clearly on top, I apologize again for that, the third 
column says State or other U.S. jurisdiction of last residence 
in the United States. So, the proposal is just to show the last 
State and not the hometown or home county address.
    Mrs. Maloney. So, you all agree it should just be the 
State, not the specific address?
    Mr. Hamod. The position of the coalition, at this point, is 
we believe that it would be very helpful to go down to the 
district level. We also recognize that it would be a challenge 
operationally. Having said that, we welcome the opportunity to 
work with the Census Bureau and the subcommittee to explore 
these opportunities.
    Mrs. Maloney. My time is up, but I have one last question. 
I have actually a series of questions, but I want to ask you, 
do you think there should be a time limit? What if a person 
hasn't lived in the United States for 20 years or 5 years or 15 
years? Should it make any difference if people declare that 
they never intend to return to the United States?
    These are the people representing the Americans abroad. I 
would like to hear from them before I hear from an American 
living here. I mean, this is the purpose of the panel.
    Mr. Johnson. Could we say we never intend to pay taxes or 
to vote?
    Mrs. Maloney. Most Americans abroad are very patriotic 
citizens and great Ambassadors for our country, but some 
Americans have become exiles. They leave because they don't 
like the country and they are not supportive of the country.
    I just want to say one thing. I think one thing that you 
raised, Mr. Hamod, in your remarks, really all of you did, is 
how we are really moving to a world committee and there will 
be, as trade increases, more and more Americans abroad. And 
this is a very, very important point, and I truly do believe 
that you are the best Ambassadors we can have as you are in the 
different countries on our values and our system of government.
    But this whole thing about time, exiles, and how you treat 
these people? Can you answer.
    Ms. van Schooneveld. I would like to speak on that, if I 
may. I hate the term exiles, if I may. I know a number of 
Americans who have lived 30, 40, 50 years abroad and still are 
extremely proud of the flag and of their nationality. I don't 
think you can draw any arbitrary line where patriotism starts 
or stops.
    I think you'll find many Americans within the United States 
who do not participate in the governmental process and are not 
interested in voting and certainly are not interested in paying 
their taxes. We are not claiming to be better than any 
Americans in the United States. What we are fighting against is 
the reputation of being worse than Americans in the United 
States. We just want to be on an equal basis with Americans in 
the United States, including being counted in the census.
    Mrs. Maloney. Other comments? Do you think they should have 
to pay taxes?
    Mr. Hamod. Absolutely. It is the law.
    Mrs. Maloney. What about an exile, one who denounces their 
government, would they be counted?
    Mr. Gribble. If they've given up their citizenship, they 
are not American citizens. If they carry a passport, they are 
American citizens. In Kuwait, there are different classes of 
citizens. There are people who are allowed to vote and people 
who are not allowed to vote. There are people who get certain 
benefits and people who don't get those benefits.
    We don't have that in America. I don't think we should have 
anything that allows us to have even a semblance of that 
happening in America. If you carry a U.S. passport, if you are 
a U.S. citizen, you fulfill your obligations to the country and 
pay your taxes, you make a choice whether to vote or not to 
vote; but we don't assign levels of citizenship, and yet the 
Census Bureau does in a de facto manner.
    Mrs. Maloney. May I ask another one?
    Mr. Miller. Let me go, and then we can go back. Who of the 
panel has worked with the Census Bureau over the past years? 
Any of you had meetings with the Census Bureau? I know they've 
had meetings with representatives of citizens living abroad.
    Mr. Johnson. I have had correspondence with them, several 
pieces of paper.
    Mr. Miller. I know there have been groups that met with me 
in the past year or so, but I don't know if anyone here 
specifically had.
    One of the arguments the Bureau used a little while ago was 
that a voluntary one is not statistically valid. That is the 
argument: how do you get a statistically valid count and is it 
proportionately distributed properly within the States? That is 
a problem.
    The cost question came up and just to let you know, we are 
going to spend over $6 billion on the census this time around. 
This Congress and the previous Congresses have given all the 
money that the Census Bureau needs. We're spending $1 billion 
this current year just getting ready for the census.
    While it would cost money, I think we all said as a 
constitutional requirement that we count everybody. And we 
should put all the efforts and resources into the actual count 
as necessary. And so I don't think cost is an excuse, and I 
don't think the Bureau would. It is a legitimate question to 
raise, but it is not an excuse.
    I saw a number. It was 750,000 overseas people voted; is 
that right? Are you familiar with that number? Is it 750,000 
non-military, non-government? How does that system work, this 
voting by card? You have to register to vote in a specific 
county or parish; is that right?
    Mr. Gribble. It depends on the individual State laws for 
voting in the local elections. They all have different 
requirements. They have different requirements obviously on 
establishing legal residence there for the right to vote. You 
fill out the form. You attest to it based on what the 
requirements are in that State. Sometimes it has to be attested 
to in front of a notary. Consular officers in some States is 
not required.
    The Federal Postcard Application basically allows you to do 
the registration and also request a ballot. You get a normal 
absentee ballot from the State. In fact, in the State of 
Florida, when I go in for my absentee ballot, they hand it to 
you. If you are there to physically pick it up ahead of the 
election, they just make you vote ahead of time, and they hold 
it till the day of election. It varies from State to State.
    Mr. Miller. Can you register just for a State election, or 
do you need to register like in Ormond Beach to vote for city 
council, on the school board and everything?
    Mr. Gribble. It depends on the State.
    Mr. Miller. Some States allow--a generic State--it would be 
difficult living overseas to decide school board races and 
such.
    Mr. Smallhoover. It depends a great deal on the State. Some 
States will allow you to register only for Federal elections. 
Other States will allow you to register for both.
    Some States can tax us when we vote in Federal elections 
overseas citizens but they can tax overseas citizens if they 
vote in State elections and some States don't tax. It is sort 
of you've got 50 choices, and you pick and choose.
    Mr. Marans. With your permission, Mrs. Maloney, to clarify 
this point, the Federal law that was passed in 1975 requires 
every State to allow every overseas citizen to vote in Federal 
elections in their State of last residence in the United 
States.
    It does not require the States to allow overseas residents 
to vote in State and local elections, unless that's permitted 
under State law. There is something else that the legislation 
provides. It says that overseas American citizens should not 
have their voting in Federal elections be taken into account 
for State and local tax purposes.
    Overseas citizens are subject to Federal taxation, but the 
fact that they would vote for Mrs. Maloney or for Mr. Miller in 
the congressional election in a particular State doesn't mean 
they would necessarily have to pay county taxes in Ormond. But 
if they wanted to vote for State elections in Florida, Florida 
may decide they should be subject to State taxes.
    There is both a Federal ballot and a non-Federal ballot, a 
complete ballot, but anyone can get a Federal ballot who's an 
overseas citizen and can show that he or she has a last State 
of residence in the particular State.
    Mr. Miller. Does anyone know the number of registered 
voters overseas?
    Mr. Smallhoover. Nobody knows that number.
    Mr. Marans. Actually, the concept of registered voter is a 
little different for overseas citizens because many States 
regard this process as a re-registration every time the card 
comes in, rather than keeping overseas voters on particular 
rolls on a continuing basis. So the card is a combination 
registration and request for ballot.
    Mr. Miller. Thank you. Mrs. Maloney.
    Mrs. Maloney. Can you tell us if you reviewed how the 
Bureau attempted to enumerate U.S. citizens living abroad 
during the 1970 census? Did any of you work with the Bureau on 
this effort? And do you consider that effort a success? I 
understand that in the 1970 census, the Bureau published a 
figure of 1,700,000 for the population abroad, and do you 
believe that that is an accurate number? If not, how inaccurate 
do you think it is? Comments from the abroad citizens.
    Ms. van Schooneveld. I think Mr. Smallhoover addressed that 
quite a bit in his presentation. Why don't you go ahead?
    Mr. Smallhoover. Thank you. I was not overseas in 1970, so 
I can't say whether they did a good job. The one thing that is 
clear from the State Department's numbers is that every time 
anyone tries to put together a number--because things haven't 
been done on a proper basis--that number is simply wrong.
    Now, there is a report that was done in 1992, by Ms. Mills 
from the Census Bureau about those census efforts, which talked 
about how they were conducted and the various flaws that she 
saw in them.
    One of the major things was, in fact, was that there wasn't 
funding. The American overseas community was a different entity 
at the time. In 1960 and 1970, Americans abroad did not have 
the right to vote in Federal elections guaranteed by Federal 
law. It wasn't until 1975 that that right was granted to us. 
Through the last 25 years we have, as groups at various 
organizations, been very good at increasing the number of 
Americans abroad who participate in the American political 
system.
    So, maybe in 1970 the number they put together was probably 
1.7. My guess is that even then that was an incorrect number. 
Today, we have a vague idea how much it is.
    We don't really know until we get counted, but what we do 
know, is that our experience with each election in getting 
people to come out to vote and getting the community overseas 
to understand the simple fact that because they are overseas 
does not mean that they are not Americans. The fact that they 
are overseas doesn't mean they can't participate in the 
process. It is a very real thing; and it is quite likely that 
with an effort by organizations, we can be very helpful in 
expediting the process.
    Mrs. Maloney. One of your recommendations that came from 
your organization is to create a self-reporting form which 
American citizens could pick up from embassies or the Internet 
or wherever.
    If there is self-reporting, I have a concern that many 
States may start lobbying efforts in an attempt to get the 
overseas population to self-identify with their particular 
States. The determination of the last seat in the House often 
turns on very, very small numbers. A lot of our elections are 
very close too, by the way, so this could make a difference 
conceivably, and can you comment on this concern?
    Mr. Hamod. Did it happen in 1970? To the best of my 
knowledge, no. And it is possible that States would undertake a 
lobbying effort to get their people overseas to do that, but we 
believe it is highly unlikely.
    Mrs. Maloney. Let the members talk before the lawyer talks. 
They have come a long ways to be here.
    Mr. Smallhoover. Let me in a slightly more discordant voice 
than the coalition, repeat what David just said. We saw this 
morning in one of the bills that Wisconsin is very concerned 
about counting possibly 10,000 people who may have moved one 
way or the other.
    Now, I don't know that they are going to bother to start 
sending out fliers to all of the University of Wisconsin alumni 
to find out where they are, but the answer is, we don't have 
any way to tell you whether a State will start lobbying to find 
us. In fact, in a way, it would be great if they tried to find 
us, but we have no way of knowing. Maybe Mrs. Maloney in New 
York should consider it. You are likely to lose a couple of 
seats, I think.
    Mrs. Maloney. In addition, if the enumeration is completely 
voluntary and there is no documentation needed to prove State 
ties, could imaginary people be created? We hear a lot of 
concerns about manipulation of the data. Should we worry about 
manipulation of the overseas American count?
    Ms. van Schooneveld. I am eternally distressed to hear of 
the constant distress. I understand that verification is a very 
important concept, particularly when amassing statistical data.
    However, I must also confess to you and, probably the 
others feel the same, that as Americans abroad, we are 
constantly put a bit on the defensive because there is always 
this feeling: because you are on foreign soil, how can we be 
sure you are honest?
    The form, as we have designed it, does give space for the 
passport numbers. Since those could be verified via the State 
Department, I don't see there should be additional problems.
    Mrs. Maloney. Anyone else like to comment?
    Mr. Hamod. Are you opening it up to all of us?
    Mrs. Maloney. Of course.
    Mr. Johnson. As far as the voters are concerned and the 
idea of trying to get this whole thing going again, it is 
conceivable to me. I started corresponding with these people, 
the Census Bureau, in April 1997. And I have had three letters 
since then. They all say the same thing. Why that should be, I 
really cannot figure that out.
    No one has really made an honest attempt to suggest what 
you are suggesting, Mrs. Maloney, about the idea of a test 
pattern of some kind. If that had been done even 3 years ago, 
we'd be well on the way.
    Mr. Hamod. I guess I would raise the issue of the imaginary 
passport number. We are doing the best we can to come up with 
ways to meet the Census Bureau's requirements. I hope you'll 
give us the benefit of the doubt for that.
    If someone in Canada or Mexico does not have a U.S. 
passport, and there are those who don't, we are proposing some 
other ways of doing it: voter registration card, birth 
certificate, certificate of naturalization, consular report on 
births abroad.
    We are trying to be as flexible and helpful as we can be to 
find a way to make this work out. The problem we are facing is 
a healthy dose of skepticism, which I hope we are dispelling 
today; and, in the case of the Census Bureau, some real 
obstinacy. We are hopeful that just by showing we can make this 
happen if Congress works with us, and if the Census Bureau 
works with us, we can do it.
    Mrs. Maloney. Well, I have legislation that would do it.
    Mr. Hamod. We haven't had an opportunity to review it. We 
are very grateful to you for submitting it, and I have to say 
from personal experience, your staff and the chairman's staff 
are extraordinary.
    We have had a fantastic exchange of ideas. We are extremely 
grateful for that. We wish that your legislation, that Mr. 
Gilman's legislation, had come out 5 years ago. We wouldn't be 
in the position today that we are in if it had. We have not had 
an opportunity to review the legislation. We will give it our 
serious consideration and we appreciate the two Members and 
their respective staffs' efforts to help us work this out.
    Mrs. Maloney. Thank you.
    Mr. Miller. We thank all of you for being here today. It 
has been a very informative hearing. I want to thank you for 
your commitment and motivation for being here, but also the 
preparation that was put into the ideas of how to get the job 
done.
    I don't think you should feel there is a question of 
distrust at all but whether we count homeless people and 
illegal immigrants. They all have to be counted as part of our 
system. But there has to be a verification to make sure it is 
accurate. There is a real concern that we have the most honest 
and accurate census as possible.
    So, let me thank you on behalf of the committee and Mrs. 
Maloney.
    Mrs. Maloney. Thank you all. I have a series of questions. 
I didn't get a chance to ask all of them on how to make this 
happen. And I am going to ask if I could get them all to you 
and your attorney and see if we can get some answers, if that 
is all right.
    Mr. Miller. I ask unanimous consent that all Members and 
witnesses' written opening statements be included in the 
record. Without objection, so ordered. In case Members have 
additional questions for our witnesses, I ask for the record to 
remain open for 2 weeks for Members to submit questions for the 
record and witnesses to submit written answers as soon as 
possible. Without objection, so ordered.
    I also ask unanimous consent that the collection of short 
statements on census 2000 mentioned by Ms. van Schooneveld be 
included in the record and without objection, that will also be 
included. Thank you once again and the hearing will stand 
adjourned.
    [Whereupon, at 1:45 p.m., the subcommittee was adjourned.]
    [The joint appendix to supplement testimony of Mr. Gribble, 
Mr. Hamod, Mr. Johnson, and Ms. van Schooneveld, and additional 
information submitted for the hearing record follow:]
[GRAPHIC] [TIFF OMITTED]60341.055

[GRAPHIC] [TIFF OMITTED]60341.056

[GRAPHIC] [TIFF OMITTED]60341.057

[GRAPHIC] [TIFF OMITTED]60341.058

[GRAPHIC] [TIFF OMITTED]60341.059

[GRAPHIC] [TIFF OMITTED]60341.060

[GRAPHIC] [TIFF OMITTED]60341.061

[GRAPHIC] [TIFF OMITTED]60341.062

[GRAPHIC] [TIFF OMITTED]60341.063

[GRAPHIC] [TIFF OMITTED]60341.064

[GRAPHIC] [TIFF OMITTED]60341.065

[GRAPHIC] [TIFF OMITTED]60341.066

[GRAPHIC] [TIFF OMITTED]60341.067

[GRAPHIC] [TIFF OMITTED]60341.068

[GRAPHIC] [TIFF OMITTED]60341.069

[GRAPHIC] [TIFF OMITTED]60341.070

[GRAPHIC] [TIFF OMITTED]60341.071

[GRAPHIC] [TIFF OMITTED]60341.072

[GRAPHIC] [TIFF OMITTED]60341.073

[GRAPHIC] [TIFF OMITTED]60341.074

[GRAPHIC] [TIFF OMITTED]60341.075

[GRAPHIC] [TIFF OMITTED]60341.076

[GRAPHIC] [TIFF OMITTED]60341.077

[GRAPHIC] [TIFF OMITTED]60341.078

[GRAPHIC] [TIFF OMITTED]60341.079

[GRAPHIC] [TIFF OMITTED]60341.080

[GRAPHIC] [TIFF OMITTED]60341.081

[GRAPHIC] [TIFF OMITTED]60341.082

[GRAPHIC] [TIFF OMITTED]60341.083

[GRAPHIC] [TIFF OMITTED]60341.084

[GRAPHIC] [TIFF OMITTED]60341.085

[GRAPHIC] [TIFF OMITTED]60341.086

[GRAPHIC] [TIFF OMITTED]60341.087

[GRAPHIC] [TIFF OMITTED]60341.088

[GRAPHIC] [TIFF OMITTED]60341.089

[GRAPHIC] [TIFF OMITTED]60341.090

[GRAPHIC] [TIFF OMITTED]60341.091

[GRAPHIC] [TIFF OMITTED]60341.092

[GRAPHIC] [TIFF OMITTED]60341.093

[GRAPHIC] [TIFF OMITTED]60341.094

[GRAPHIC] [TIFF OMITTED]60341.095

[GRAPHIC] [TIFF OMITTED]60341.096

[GRAPHIC] [TIFF OMITTED]60341.097

[GRAPHIC] [TIFF OMITTED]60341.098

[GRAPHIC] [TIFF OMITTED]60341.099

[GRAPHIC] [TIFF OMITTED]60341.100

[GRAPHIC] [TIFF OMITTED]60341.101

[GRAPHIC] [TIFF OMITTED]60341.102

[GRAPHIC] [TIFF OMITTED]60341.103

[GRAPHIC] [TIFF OMITTED]60341.104

[GRAPHIC] [TIFF OMITTED]60341.105

[GRAPHIC] [TIFF OMITTED]60341.106

[GRAPHIC] [TIFF OMITTED]60341.107

[GRAPHIC] [TIFF OMITTED]60341.108

[GRAPHIC] [TIFF OMITTED]60341.109

[GRAPHIC] [TIFF OMITTED]60341.110

[GRAPHIC] [TIFF OMITTED]60341.111

[GRAPHIC] [TIFF OMITTED]60341.112

[GRAPHIC] [TIFF OMITTED]60341.113

[GRAPHIC] [TIFF OMITTED]60341.114

[GRAPHIC] [TIFF OMITTED]60341.115

[GRAPHIC] [TIFF OMITTED]60341.116

[GRAPHIC] [TIFF OMITTED]60341.117

[GRAPHIC] [TIFF OMITTED]60341.118

[GRAPHIC] [TIFF OMITTED]60341.119

[GRAPHIC] [TIFF OMITTED]60341.120


</pre></body></html>
